No. 20In the

Supreme Court of the United States
ENI USA GAS MARKETING LLC,
Petitioner,
v.
GULF LNG ENERGY, LLC
AND GULF LNG PIPELINE, LLC,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Delaware

PETITION FOR A WRIT OF CERTIORARI
Joseph J. LoBue
Counsel of Record
Helene Gogadze
Sheppard Mullin Richter
& Hampton LLP
2099 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 747-1936
jlobue@sheppardmullin.com
Counsel for Petitioner
303401

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the Federal Arbitration Act permits a court
to refuse to enforce an arbitration agreement delegating
all questions, including questions of arbitrability, to an
arbitrator where a party contends that the claim sought
to be arbitrated represents a “collateral attack” on a prior
arbitration award.

ii
PARTIES TO THE PROCEEDING
Petitioner is Eni USA Gas Marketing LLC. The
Respondents are Gulf LNG Energy, LLC and Gulf LNG
Pipeline, LLC.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Eni USA Gas Marketing LLC is indirectly
owned by Eni S.p.A. No other publicly held company holds
10% or more of its stocks.

iv
RELATED PROCEEDINGS
Gulf LNG Energy, LLC v. Eni USA Gas Mktg.,
C.A. No. 2019-0460-AGB, Chancery Court of Delaware.
Judgment entered Dec. 30, 2019.
Gulf LNG Energy, LLC v. Eni U.S. Gas Mktg., No. 22,
2020, Supreme Court of the State of Delaware. Judgment
entered Nov. 17, 2020.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
B. Facts and Procedural History . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . . 10
A. The Decision Below Creates a Conflict
Among the Lower Courts . . . . . . . . . . . . . . . . . . 11

vi
Table of Contents
Page
B. The Decision Below Improperly Creates
A Policy Exception to Enforcement of
Arbitration Clauses Prohibited by Schein
and the FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
C. The Question Presented Is An Important
One That Warrants The Court’s Review
In This Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
SUPREME COURT OF THE STATE OF
DELAWARE, FILED NOVEMBER 17, 2020  . . . . 1a
APPENDIX B — MEMORANDUM OPINION
OF THE COURT OF CH A NCERY OF
THE STATE OF DELAWA RE, DATED
DECEMBER 30, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 42a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
14 Penn Plaza LLC v. Pyett,
556 U.S. 247 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
American Express Co. v.
Italian Colors Restaurant,
570 U.S. 228 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . 5, 14
AT&T Technologies, Inc. v.
Communications Workers of America,
475 U.S. 643 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Citigroup, Inc. v.
Abu Dhabi Investment Authority,
776 F.3d 126 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . 12, 13
CompuCredit Corp. v. Greenwood,
565 U.S. 95 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Eni USA Gas Marketing LLC v. Gulf LNG
Energy, LLC and Gulf LNG Pipeline, LLC,
ICDR Case No. 01-16-0000-7065 . . . . . . . . . . . . . . . 7, 8

ix
Cited Authorities
Page
First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . 5, 15
Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Green Tree Financial Corp.-Alabama v.
Randolph,
531 U.S. 79 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Henry Schein, Inc. v. Archer & White,
139 S. Ct. 524 (2019) . . . . . . . . . . . . . . . . . . . 2, 5, 15, 16
In re Prudential Ins. Co. of Am. Sales
Practice Litig.,
133 F.3d 225 (3d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 12
John Hancock Mutual Life Insurance Co. v.
Olick,
151 F.3d 132 (3d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 11
Local 103 of International Union of Electrical,
Radio and Machine Workers v. RCA Corp.,
516 F.2d 1336 (3d Cir. 1975) . . . . . . . . . . . . . . . . . . . . 12
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 18

x
Cited Authorities
Page
Moses H. Cone Memorial Hospital v.
Mercury Construction Corp.,
460 U.S. 1 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 15
Shearson/American Express, Inc. v. McMahon,
482 U.S. 220 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Stolt-Nielsen S.A v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

STATUTES AND OTHER AUTHORITIES
9 U.S.C. § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
9 U.S.C. § 4  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
Eni USA Gas Marketing LLC respectfully petitions
for a writ of certiorari to review the judgement of the
Supreme Court of the State of Delaware in this case.
OPINIONS BELOW
The opinion of the Supreme Court of Delaware (App.,
infra, 1a–41a) is reported at 242 A.3d 575.
The opinion of the Chancery Court of Delaware (App.,
infra, 42a–79a) is unreported.
JURISDICTION
The judgment of the Supreme Court of Delaware
was entered on November 17, 2020. App., infra, 1a. The
jurisdiction of this Court is invoked under 28 U.S.C.
1257(a).
This petition is timely filed pursuant to the Supreme
Court’s order dated March 19, 2020.
STATUTORY PROVISION INVOLVED
Section 2 of the Federal Arbitration Act, 9 U.S.C. 2,
provides:
A written provision in any maritime transaction
or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or
transaction, or the refusal to perform the whole
or any part thereof, or an agreement in writing
to submit to arbitration an existing controversy

2
arising out of such a contract, transaction,
or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.
STATEMENT
This case presents a vitally important question on
which the decision from the state court of last resort
below (i) split from the decisions of two federal appellate
courts, (ii) failed to apply this Court’s clear precedent,
and (iii) misapplied the Federal Arbitration Act
(“FAA”) to override the parties’ clear and unmistakable
delegation of issues to the jurisdiction of arbitrators.
The Court has consistently held that the FAA
requires courts to enforce arbitration agreements as
written and to refer to arbitration any issues falling
within the scope of the arbitration clause. In 2019,
in Henry Schein, Inc. v. Archer & White, the Court
unanimously re-affirmed this principle even as to the
threshold question of arbitrability—that is, whether an
arbitration agreement covers a particular dispute—if
the parties clearly and unmistakably delegated that
question to an arbitrator. 139 S.Ct. 524, 530 (2019).
Here, the parties’ contract contains “a broad
form arbitration agreement designed to encompass
all possible disputes” and delegates all disputes,
including specifically disputes “over arbitrability or
jurisdiction,” to arbitration. The case before the lower
courts involved three issues: (1) the preclusive effect of
a prior arbitration award on a subsequent arbitration

3
proceeding; (2) whether the issue of preclusive effect
is subject to arbitration; and (3) “who decides” whether
that issue is subject to arbitration. The parties’
arbitration agreement plainly delegates each of these
issues to the arbitrators.
The Supreme Court of Delaware recognized
that the contract contains a broad arbitration clause
covering “all possible disputes,” including a clear and
unmistakable delegation of arbitrability questions to
the arbitrators. App., infra, 5a, 23a, 26a. The Supreme
Court of Delaware recognized that the United States
Courts of Appeals for the Second Circuit and the
United States Court of Appeals for the Third Circuit
have held that disputes over the preclusive effect of
a prior arbitration award must be sent to arbitration
where the parties have agreed to a broad arbitration
clause. Id. at 22a, n.72. Finally, the Supreme Court of
Delaware acknowledged the Court’s decision in Schein
that courts may not employ policy exceptions to the
enforcement of arbitration clauses according to their
terms. Id. at 21a–22a.
Nevertheless, the Supreme Court of Delaware
refused to honor the parties’ broad arbitration clause,
refused to send the issues of arbitrability and preclusion
to the arbitrators, and directed the Court of Chancery
of Delaware to issue an order enjoining the arbitration.
Id. at 35a. The court below found that the courts,
rather than the arbitrators, had jurisdiction over all
of the issues in the case because the party opposing
arbitration argued that the new arbitration constituted
a so-called “collateral attack” on a prior arbitration
award. Id. at 23a–26a. In essence, the Supreme Court

4
of Delaware created its own policy exception to the
FAA precluding arbitration of any issues—regardless
of the scope of the arbitration clause—once the specter
of the “collateral attack” doctrine is raised.
The Supreme Court of Delaware’s application of a
“collateral attack” exception to arbitral jurisdiction is
inconsistent with the FAA’s text and with its “central or
primary purpose” to ensure that “private agreements
to arbitrate are enforced according to their terms.”
Stolt-Nielsen S.A v. AnimalFeeds Int’l Corp., 559 U.S.
662, 682 (2010) (internal quotation marks and citations
omitted). As it has in other recent cases, this Court
should grant this petition for certiorari to address the
lower courts’ erroneous, arbitration-hostile application
of the FAA and to reaffirm the “emphatic federal policy
in favor of arbitra[tion].” Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 631 (1985).
A. Background
Cong ress enacted the FA A to “reverse the
longstanding judicial hostility to arbitration agreements
[…].” Gilmer v. Interstate/Johnson Lane Corp., 500
U.S. 20, 24 (1991). Section 2 of the Federal Arbitration
Act—which contains the FAA’s “primary substantive
provision,” Moses H. Cone Memorial Hospital v.
Mercury Construction Corp., 460 U.S. 1, 24 (1983)—
ensures that “[a] written provision in … a contract
evidencing a transaction involving commerce to settle
by arbitration a controversy thereafter arising out
of such contract … shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.” 9 U.S.C.

5
2. Section 2 embodies both “a liberal federal policy
favoring arbitration and the fundamental principle that
arbitration is a matter of contract.” AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 339 (2011) (internal
quotation marks and citations omitted).
Accord i ngly, Sect ion 2 “ places a rbit rat ion
agreements on an equal footing with other contracts,
and requires courts to enforce them according to their
terms.” Rent-A-Center, West, Inc. v. Jackson, 561
U.S. 63, 67 (2010) (internal citations omitted). This
requirement applies to disputes over “gateway” issues,
such as whether a particular claim falls within the
scope of an arbitration agreement. See id. at 68-70.
And it likewise applies to disputes over the antecedent
question: who decides such gateway issues, the court
or the arbitrator?—the “who decides” question. See
Schein, 139 S. Ct. at 529.
Although courts presumptively decide gateway
issues, parties may override that general principle by
“clear[ly] and unmistakab[ly]” agreeing to arbitrate
arbitrability. First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938, 944 (1995). This type of delegation provision
is “simply an additional, antecedent agreement the party
seeking arbitration asks the federal court to enforce,”
and the FAA “operates on this additional arbitration
agreement just as it does on any other.” Schein, 139
S. Ct. at 529. (citation omitted). When parties include
a delegation provision in their agreement, this grants
authority to the arbitrators to decide all gateway issues,
including questions over “whether their [arbitration]
agreement covers a particular controversy.” Id. (citation
omitted).

6
B. Facts and Procedural History
Petitioner Eni USA Gas Marketing LLC (“Eni”)
is a Delaware limited liability company with a place
of business in Houston, Texas. Eni is an indirect
subsidiary of Eni S.p.A., a multi-national integrated
energy company headquartered in Italy. App., infra,
45a. Eni S.p.A. engages in, among other things, oil and
gas exploration, field development and production, the
supply, trading and shipping of liquified natural gas
(“LNG”), electricity, fuels and petrochemicals. Id.
On December 8, 2007, Eni entered into a Terminal
Use Agreement (the “TUA”) with Respondents (“Gulf”)
in connection with services to be provided by Gulf
at a terminal and pipeline facility near Pascagoula,
Mississippi (“Pascagoula Facility”) for importation and
regasification of LNG for distribution in the United
States. Id. at 45a.
In March 2016, Eni initiated arbitration proceedings
against Gulf pursuant to the dispute resolution
provision in the TUA. Id. at 47a. The arbitration was
conducted under the arbitration rules and auspices of
the International Centre for Dispute Resolution. Id.
The seat of arbitration was Houston, Texas. In the
arbitration, Eni sought a declaration that the TUA
had terminated pursuant to the frustration-of-purpose
doctrine as a result of the “shale gas revolution,” which
had occurred in the United States after the parties
entered into the TUA. Id. at 47a–48a. In the alternative,
Eni sought a declaration that it had the contractual
right to terminate the TUA for certain alleged breaches
of contract by Gulf. Id. Gulf opposed Eni’s frustrationof-purpose and breach of contract claims.

7
Eni ultimately prevailed on its frustration-ofpurpose claim in the arbitration. On June 29, 2018
(with subsequent clarification issued on July 31, 2018),
the arbitration tribunal issued a final award in Eni
USA Gas Marketing LLC v. Gulf LNG Energy, LLC
and Gulf LNG Pipeline, LLC, ICDR Case No. 01-160000-7065 (the “Final Award”). Id. at 48a–49a. The
tribunal concluded that the principal purpose of the
TUA (importing LNG into the United States) had been
frustrated by the shale gas revolution, declared that the
TUA terminated as of March 1, 2016, and awarded Gulf
certain compensation primarily for costs associated
w ith decommissioning the Pascagoula Facility
(“Decommissioning Costs”). Id. Because the tribunal
determined that the TUA had terminated on March
1, 2016 based on the frustration doctrine, the tribunal
did not reach and did not decide Eni’s alternative claim
for a declaration that Eni had the contractual right to
terminate the TUA as a result of Gulf’s breaches. Id.
at 49a. Both parties sought confirmation of the Final
Award in the Court of Chancery of Delaware. Id. at
51a. The Court of Chancery of Delaware confirmed
the Final Award in its entirety on February 1, 2019.
Id. at 51a–52a.
On June 3, 2019, Eni initiated a new arbitration
(the “Second Arbitration”) against Gulf under the
TUA that included the breach of contract claims left
undecided in the first arbitration. Id. at 52a. Eni also
alleged in the Second Arbitration that, in order to
obtain Decommissioning Costs, Gulf had made certain
representations in the prior arbitration that Gulf
had later disavowed in subsequent proceedings. Id.
Accordingly, Eni also sought “[a]n award declaring that

8
[Gulf] made material negligent misrepresentations to
the tribunal in the prior arbitration.” Id.
On June 17, 2019, Gulf filed a complaint in the
Court of Chancery of Delaware seeking to enjoin the
Second Arbitration both as to Eni’s breach of contract
claims and its negligent misrepresentation claim on the
grounds that the Second Arbitration was precluded by
the prior arbitration award. Id. at 53a, 54a–55a. Eni
argued that all such issues—including the question of
arbitrability—were subject to arbitration under the
express terms of the parties’ broad arbitration clause.
Id. at 61a.
The TUA contains “a broad form” arbitration clause
expressly covering “all possible disputes” including, in
particular, issues of “arbitrability.” Article 20.1 of the
TUA provides:
Arbitration. Any Dispute (other than a Dispute
regarding measurement under Annex I or
Annex II) shall be exclusively and definitively
resolved through final and binding arbitration,
it being the intention of the Parties that this is
a broad form arbitration agreement designed
to encompass all possible disputes.
Id. at 62a (TUA, Art. 20.1) (emphasis added).
The agreement in turn defines the term “Dispute”
in the broadest possible manner to include “any
dispute, controversy or claim” of “any and every kind
or type” including disputes relating to “arbitrability” or
“jurisdiction:”

9
“Dispute” means any dispute, controversy or
claim (of any and every kind or type, whether
based on contract, tort, statute, regulation,
or otherwise) arising out of, relating to, or
connected with this Agreement, including
any dispute as to the construction, validity,
interpretation, termination, enforceability
or breach of this Agreement, as well as any
dispute over arbitrability or jurisdiction.
Id. at 63a (TUA, Art. 1(57)) (emphasis added).
The parties submitted the matter to the Court of
Chancery of Delaware on cross-motions for judgment
on the pleadings. On December 30, 2019, the Court of
Chancery of Delaware issued its Opinion and Order
refusing to enjoin arbitration of Eni’s breach of contract
claims but enjoining Eni from pursuing its negligent
misrepresentation claim in the Second Arbitration.
Id. at 79a. On January 16, 2020, Gulf appealed to the
Supreme Court of Delaware the Court of Chancery of
Delaware’s decision refusing to enjoin arbitration of
Eni’s breach of contract claims, and Eni cross-appealed
the Court of Chancery of Delaware’s decision enjoining
arbitration of Eni’s negligent misrepresenting claim on
February 7, 2020. Id. at 12a–13a.
On November 17, 2020, the Supreme Court of
Delaware issued its opinion affirming the Court of
Chancery of Delaware’s judgment enjoining Eni’s
negligent misrepresentation claim and reversing the
Court of Chancery of Delaware’s judgment refusing to
enjoin Eni’s breach of contract claims. Id. at 35a. In so
doing, the Supreme Court of Delaware failed to honor

10
and enforce the parties’ agreement to arbitrate, took
jurisdiction and decided all of the issues in the case, and
directed the Court of Chancery of Delaware to modify
its injunction to enjoin Eni from pursuing all claims in
the Second Arbitration.
Justice Vaughn issued a dissenting opinion noting
that the majority’s determination was not supported by
the case law relied upon. Id. at 36a–41a. Justice Vaughn
also noted that—in line with the Court’s decision in
Schein and the principles announced in prior decisions
by the Second and Third Circuits—he would enforce the
parties’ arbitration agreement (including the delegation
of arbitrability issues) as written and refer Eni’s claims
to the arbitrators. Id. at 40a–41a.
REASONS FOR GRANTING THE PETITION
This case presents a conflict among the courts below
on an important question of law involving the FAA:
whether the FAA permits a court to decline to enforce
an arbitration agreement (including as to questions of
arbitrability) because the party opposing arbitration has
argued that the claim sought to be arbitrated is precluded
by a prior arbitration award. In essence, the Supreme
Court of Delaware’s flawed decision creates a de facto
policy exception to the FAA making otherwise clear
and unambiguous arbitration agreements unenforceable
whenever the preclusive “collateral attack” doctrine is
raised. The decision below presents an important issue
on the enforceability of arbitration clauses as written,
creates a split with the Second and Third Circuit Courts
of Appeals, and cannot be reconciled with the Court’s
consistent case law favoring arbitration, including Schein.
The petition for a writ of certiorari should be granted.

11
A. The Decision Below Creates a Conflict Among the
Lower Courts
The Supreme Court of Delaware’s decision creates
a conflict among federal courts and a state court of last
resort on important questions relating to the enforcement
of arbitration clauses. Two federal courts of appeals have
directly addressed the question of arbitrability regarding
the preclusive effect of a prior arbitration award on
claims in a subsequent arbitration. Both courts ruled
that the FAA requires that such issues be decided by the
arbitrators, rather than the courts, in the presence of a
broad arbitration clause.
John Hancock Mutual Life Insurance Co. v. Olick
involved a question whether a prior arbitration precluded
the claims raised in a second arbitration. 151 F.3d 132 (3d
Cir. 1998). Specifically, the Third Circuit considered “the
question of whether, under the [FAA], a district court has
the authority, notwithstanding a valid arbitration clause,
to enjoin a party from pursuing arbitration on res judicata
grounds arising from both a prior arbitration and a prior
judgment.” Id. at 133. In deciding that question, the Third
Circuit set forth the following test:
[T]he judicial inquiry before compelling or
enjoining arbitration is narrow, and the FAA
authorizes the district court to explore only two
threshold questions in considering a demand
for arbitration: (1) Did the parties seeking
or resisting arbitration enter into a valid
arbitration agreement? (2) Does the dispute
between those parties fall within the language
of the arbitration agreement?

12
Id. at 139 (citing In re Prudential Ins. Co. of Am. Sales
Practice Litig., 133 F.3d 225, 228, 233 (3d Cir. 1998)).
Elaborating on this test, the court reasoned that
“the proper analytical inquiry mandated under the FAA
is to focus on both the existence of a valid arbitration
agreement and the nature of that agreement as it relates
to the parties’ current dispute.” Id. The court concluded
that “Hancock’s res judicata objection based on the prior
arbitration is an issue to be arbitrated and is not to be
decided by the courts.” Id. at 140. The court explained its
rationale as follows:
The reasoning underlying this approach is that
a provision regarding the finality of arbitration
awards is a creature of contract and, like any
other contractual provision that is the subject of
dispute, it is within the province of arbitration
unless it may be said “with positive assurance”
that the parties sought to have the matter
decided by a court.
Id. at 139 (citing Local 103 of International Union of
Electrical, Radio and Machine Workers v. RCA Corp.,
516 F.2d 1336, 1340 (3d Cir. 1975)).
Citigroup, Inc. v. Abu Dhabi Investment Authority
involved a similar question of whether a prior arbitration
precluded claims raised in a second arbitration. 776 F.3d
126 (2d Cir. 2015). In that case, an arbitration award was
confirmed by the District Court for the Southern District
of New York. While the confirmation proceedings were
still pending, Abu Dhabi Investment Authority (“ADIA”)
served Citigroup with a notice for a second arbitration.

13
Citigroup sought to enjoin the second arbitration “on
the ground that ADIA’s new claims were barred by the
doctrine of claim preclusion, or res judicata, because they
were or could have been raised in the first arbitration.”
Id. at 128. The Second Circuit concluded that arbitrators
should decide the preclusive effect of the judgment
confirming the first arbitration award. The court
explained as follows:
The FAA’s policy favoring arbitration and our
precedents interpreting that policy indicate
that it is the arbitrators, not the federal courts,
who ordinarily should determine the claimpreclusive effect of a federal judgment that
confirms an arbitration award. . . . We reason
from our prior decisions interpreting the FAA,
that the determination of the claim-preclusive
effect of a prior federal judgment confirming an
arbitration award is to be left to the arbitrators.
Id. at 131.
The Supreme Court of Delaware took the opposite
approach and determined that the preclusive effect of
the prior arbitration in the instant case—as well as the
threshold question of who decides “arbitrability” of that
issue—were issues to be decided by the court. The court
distinguished the Second and Third Circuit decisions as
involving “res judicata” rather than the “collateral attack”
doctrine.
However, neither the FAA nor the parties’ broad
arbitration clause makes any such distinction on issues
that may be subject to arbitration. As a result, the

14
decision of the Supreme Court of Delaware cannot
be reconciled with the Second and Third Circuit’s
reasoning. As Justice Vaughn pointed out in his dissent
below: “The Majority seems to dismiss these cases
as ‘res judicata cases’ that do not discuss collateral
attacks, as though the attorneys who sought to enjoin
a second arbitration in those cases just made the
wrong arguments. I do not think the cases are so
easily disposed of. It is hard for me to imagine that the
distinction between res judicata and collateral attack
would have led to different outcomes in those cases.”
App., infra, 40a.
Justice Vaughn further explained that none of the
“collateral attack” cases relied on by the Majority
“appear to be ones where the parties evinced a ‘clear
and unmistakable’ agreement to arbitrate the issue
of arbitrability, and they do not discuss arbitration
language as broad as the arbitration provisions of the
agreement in this case.” Id. at 36a.
The conflict created by the decision below and those
of the Second and Third Circuits is substantial and the
question is ripe for the Court’s review.
B. The Decision Below Improperly Creates A Policy
Exception to Enforcement of Arbitration Clauses
Prohibited by Schein and the FAA
This Court has repeatedly directed lower courts to
enforce arbitration agreements as written. Schein, 139 S.
Ct. at 529-530; American Express Co. v. Italian Colors
Restaurant, 570 U.S. 228, 233 (2013); CompuCredit
Corp. v. Greenwood, 565 U.S. 95, 98 (2012); AT&T

15
Mobility, 563 U.S. at 339; Rent-A-Center, 561 U.S.
at 67. As this Court recently made clear, courts may
not decide even gateway questions of arbitrability
when an arbitration agreement provides clear and
unmistakable evidence that the parties intended to
delegate arbitrability questions to an arbitrator. Schein,
139 S. Ct. at 529-530. The Supreme Court of Delaware
ignored these directives.
“[A]rbitration is simply a matter of contract between
the parties.” First Options, 514 U.S. at 943. As a result,
under the FAA, parties may agree “to have an arbitrator
decide not only the merits of a particular dispute but
also gateway questions of arbitrability, such as whether
the parties have agreed to arbitrate or whether their
agreement covers a particular controversy.” Schein,
139 S.Ct. at 529 (internal quotation marks and citations
omitted); id. at 527 (“[T]he question of who decides
arbitrability is itself a question of contract.”); First
Options, 514 U.S. at 943 (“Just as the arbitrability of the
merits of a dispute depends upon whether the parties
agreed to arbitrate that dispute, so the question ‘who
has the primary power to decide arbitrability’ turns
upon what the parties agreement about that matter.”)
(emphasis in original) (internal citations omitted).
In Schein, the Court made clear that, when the
“contract delegates the arbitrability question to an
arbitrator, a court may not override the contract. In
those circumstances, a court possesses no power to
decide the arbitrability issue.” Schein, 139 S.Ct. at 529
(emphasis added). Once the court determines that a
valid delegation agreement exits, the court’s only task
is to enforce that agreement a written. Id. at 530 (“Just

16
as a court may not decide a merits question that the
parties have delegated to an arbitrator, a court may not
decide an arbitrability question that the parties have
delegated to an arbitrator.”).
This Court has required that arbitration agreements
must be enforced under the FAA regardless of the
court’s views regarding the merits of the issues.
As this Court explained in AT&T Technologies,
Inc. v. Communications Workers of America, the
requirement to enforce valid arbitration agreements
applies whether the claims of the party pursuing
arbitration are “‘arguable’ or not, indeed even if it
appears to the court to be frivolous.” 475 U.S. 643,
649-650 (1986). And, in Schein, this Court made clear
that a court may not override clear and unmistakable
delegation of arbitrability even where the court believes
that an argument in favor of arbitrability is “wholly
groundless.” Schein, 139 S.Ct. at 529.
In this case, the arbitration clause could not be
drafted more broadly. It expressly covers “all possible
disputes” of “any and every kind or type” including,
specifically, disputes relating to “arbitrability”
and “jur isdiction.” Never theless, the Supreme
Court of Delaware took jurisdiction over all of the
issues presented in this case, including the issue of
“arbitrability,” decided those issues, and enjoined
arbitration. App., infra, 35a. In fact, the court below
created a categorical judicial policy exception for the
so-called “collateral attack” doctrine.
Yet, courts cannot rely on judicial policy concerns to
refuse to enforce arbitration agreements. See Schein,

17
139 S.Ct. at 531; 14 Penn Plaza LLC v. Pyett, 556 U.S.
247, 270 (2009). A party that proves the existence of
a valid arbitration agreement is entitled to “an order
directing that such arbitration proceed in the manner
provided for in such agreement.” 9 U.S.C. 4 (emphasis
added). Here, Eni proved the existence of a valid
arbitration agreement covering all of the questions
at issue but instead received an order enjoining
arbitration. That holding cannot be reconciled with the
FAA or with this Court’s numerous decisions applying
the statute.
C. The Question Presented Is An Important One That
Warrants The Court’s Review In This Case
The question presented here is an important one
regarding the enforcement of arbitration clauses that
warrants the Court’s review. The Court’s action is
necessary to protect the FAA’s promise to enforce the
commercial arbitration agreements as written—including
clear and unmistakable delegations of questions of
arbitrability—and to ensure clarity and uniformity in the
application of the FAA.
As demonstrated by this Court’s frequent review of
FAA-related cases, commercial arbitration is an important
aspect of the US legal system. As this Court has recognized,
arbitration agreements enable parties to address a broad
range of disputes through a process that avoids the costs
associated with traditional litigation, and unburdens the
courts with disputes that arise, like arbitration, primarily
from contractual relationships. Parties maximize these
benefits by delegating all questions (including questions
of arbitrability and jurisdiction) to the arbitrators just as
Eni and Gulf did in this case.

18
The FAA is founded on the principle that arbitrators
will be “competent, conscientious, and impartial,” and
capable of resolving complex issues. Mitsubishi Motors,
473 U.S. at 633-634; Shearson/American Express, Inc. v.
McMahon, 482 U.S. 220, 232 (1987). Accordingly, courts
must presume that arbitrators will competently and
faithfully analyze and decide all issues within the scope
of their delegated authority including issues related to
the preclusive effect of prior proceedings, whether based
on statutes, common law doctrines or the terms of the
contract itself.
By contrast, leaving the Supreme Court of Delaware’s
decision intact will create confusion among lower state
and federal courts and invite those courts to create
their own judicial policy exceptions against enforcing
otherwise broadly-written and comprehensive arbitration
clauses. The Supreme Court of Delaware’s decision is a
step backward to the Congressionally-rejected era of
“judicial hostility to arbitration.” Green Tree Financial
Corp.-Alabama v. Randolph, 531 U.S. 79, 89 (2000);
Gilmer, 500 U.S. at 24. The decision has the potential
of generating a new class of protracted litigation over
potential policy exceptions to enforcement of arbitration
clauses, “unnecessarily complicating the law and breeding
litigation from a statute that seeks to avoid it.” AlliedBruce Terminix Cos. v. Dobson, 513 U.S. 265, 275 (1995).

19
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Joseph J. LoBue
Counsel of Record
Helene Gogadze
Sheppard Mullin Richter
& Hampton LLP
2099 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 747-1936
jlobue@sheppardmullin.com
Counsel for Petitioner
Dated April 15, 2021

APPENDIX

1a
Appendix of
A the SUPREME
Appendix A — opinion
COURT OF THE STATE OF DELAWARE,
FILED NOVEMBER 17, 2020
IN THE Supreme Court of
THE STATE OF Delaware
No. 22, 2020
GULF LNG ENERGY, LLC and
GULF LNG PIPELINE, LLC,
Plaintiffs Below,
Appellants,
v.
ENI USA GAS MARKETING LLC,
Defendant Below,
Appellee.
Court Below: Court of Chancery
of the State of Delaware.
C.A. No. 2019-0460.
September 9, 2020, Submitted
November 17, 2020, Decided
Before SEITZ, Chief Justice; VALIHURA, VAUGHN,
TRAYNOR and MONTGOMERY-REEVES, Justices,
constituting the Court en Banc.
Upon appeal from the Court of Chancery. AFFIRMED
IN PART, REVERSED IN PART.

2a
Appendix A
OPINION
SEITZ, Chief Justice, for the Majority:
In this appeal and cross-appeal, we address two
primary issues arising out of a commercial agreement
between the parties—first, whether the Court of
Chancery had jurisdiction to enjoin a second arbitration
that collaterally attacks a prior arbitration award; and
second, whether the second arbitration in fact collaterally
attacked the prior arbitration award.
We agree with the Court of Chancery that it had
jurisdiction to enjoin a collateral attack on a prior
arbitration award. The parties agreed that the Federal
Arbitration Act (“FAA”) governed their dispute. Under
the FAA, the courts have the exclusive power to review
and enforce arbitration awards. A party cannot escape
the FAA’s time-limited and exclusive review procedure
by filing a follow-on arbitration attacking the outcome of
the prior arbitration.
On the second issue, we affirm in part and reverse in
part the court’s ruling that some claims but not others
in the second arbitration collaterally attacked the award
in the prior arbitration. A collateral attack on the first
award does not depend on the res judicata or collateral
estoppel effect of claims raised or decided in the prior
arbitration. Rather, the question is whether the claimant
alleges irregularities in the prior arbitration or seeks
to rectify the harm it suffered—issues that could have
been reviewed through the FAA post-award procedure.

3a
Appendix A
The Court of Chancery should have enjoined all claims in
the second arbitration between the parties because the
admitted goal of the follow-on arbitration was to raise
irregularities and revisit the financial award in the first
arbitration. Thus, we affirm in part and reverse in part
the Court of Chancery’s judgment.
I.
A.
Gulf LNG Energy, LLC, a Delaware limited liability
company, owns and operates a liquefied natural gas
(“LNG”) terminal in Mississippi (the “Pascagoula
Facility” or “Facility”).1 The Facility unloads vesselimported LNG into the United States. Gulf LNG Pipeline,
LLC (collectively with Gulf LNG Energy, LLC, “Gulf”),
also a Delaware entity, owns and operates a five-mile
long pipeline that distributes LNG from the Pascagoula
Facility to downstream inland pipelines. Eni USA Gas
Marketing LLC (“Eni”), a Delaware entity, markets
natural gas products and offers related services in the
United States. 2

1. Unless otherwise stated, the facts are drawn from the Court
of Chancery’s opinion, Gulf LNG Energy, LLC v. Eni USA Gas
Marketing LLC, C.A. No. 2019-0460-AGB, 2019 Del. Ch. LEXIS
1403, 2019 WL 7288767 (Del. Ch. Dec. 30, 2019).
2. Eni is an indirect subsidiary of Eni S.p.A, an Italian
corporation.

4a
Appendix A
On December 8, 2007, Gulf and Eni entered into a
Terminal Use Agreement (the “TUA”), whereby Gulf
would construct the Pascagoula Facility, and Eni would
use the Facility to receive, store, regasify, and deliver
imported LNG to downstream businesses. 3 Under the
TUA, Eni agreed to pay Gulf fees for using the Facility,
including monthly Reservation Fees and Operating Fees.
The following TUA Articles are relevant to the dispute:
Article 22.4(a) — Gulf covenanted to “observe
and comply with [Article 22.2(f)] in all respects;”4
A r t icle 2 2 . 2 (f ) — Gu l f ’s “Const it ut ive
Documents” w ill contain provisions that
“limit[] [Gulf’s] purpose and object to the
ownership, design, financing, construction,
equipping, testing, commissioning, operation,
maintenance, repair, decommissioning and
removal of the [Pascagoula] Facility . . .”5
Article 22.4(e) — Gulf is entitled to “reasonable
consideration” for “all transactions” with an
Affiliate;6

3. The TUA began on December 8, 2007, and ran for twenty
years.
4. App. to Opening Br. at A257 (TUA Art. 22.4(a)).
5. Id. at A256 (TUA Art. 22.2(f)(i)).
6. Id. at A258 (TUA Art. 22.4(e)).

5a
Appendix A
Article 18.1(a)(vi) — Eni can terminate the TUA
early if Gulf fails to perform obligations under
Article 22.4(a) or 22.4(e) for a period of more
than fifteen consecutive days;7
Article 20.1(a) — the parties agreed that “[a]ny
Dispute . . . shall be exclusively and definitively
resolved through final and binding arbitration,
it being the intention of the Parties that this is
a broad form arbitration agreement designed to
encompass all possible disputes.”8 “Dispute” is
defined as “any dispute, controversy or claim (of
any and every kind or type, whether based on
contract, tort, statute, regulation, or otherwise)
arising out of, relating to, or connected with
this Agreement, including . . . any dispute over
arbitrability or jurisdiction” 9 and
Articles § 20.1(h), (o) — arbitral awards “shall be
final and binding”10 and the parties “waive any
right to appeal from or challenge any arbitral
decision or award, or to oppose enforcement
of any such decision or award before a court
or any governmental authority, except with
respect to the limited grounds for modification
or non-enforcement provided by any applicable
7. Id. at A247 (TUA Art. 18.1(a)(ix)).
8. Id. at A250 (TUA Art. 20.1(a)).
9. Id. at A176 (TUA Art. 1(57)).
10. Id. at 251 (TUA Art. 20.1(h)).

6a
Appendix A
arbitration statute or treaty”—in this case the
Federal Arbitration Act.11
On March 2, 2016, Eni filed for arbitration (the “First
Arbitration”) with the American Arbitration Association,
International Centre for Dispute Resolution (“ICDR”). In
its arbitration demand, Eni alleged that the United States’
natural gas market had undergone a “radical change”
due to “unforeseen, vast new production and supply of
shale gas in the United States [that] made import of
LNG into the United States economically irrational and
unsustainable.”12 As Eni alleged in support of declaratory
relief, (i) the essential purpose of the TUA had been
frustrated and thus terminated because of “fundamental
and unforeseeable change in the United States natural
gas/LNG market,” and (ii) a declaration that Eni could
terminate the TUA at any time under Article 18.1 because
Gulf breached warranties and covenants “in at least

11. Id. at A252 (TUA Art. 20.1(o)). Because the parties did not
designate the Delaware Uniform Arbitration Act, the FAA governs
their arbitration. 10 Del. C. § 5702(a) (requiring an arbitration
agreement to “specifically referenc[e] the Delaware Uniform
Arbitration Act [§ 5701 et seq. of this title] and the parties’ desire
to have it apply to their agreement . . . .”); Id. § 5702(c) (“Unless
an arbitration agreement complies with the standard set forth in
subsection (a) of this section for applicability of the Delaware Uniform
Arbitration Act, any application to the Court of Chancery to enjoin or
stay an arbitration, obtain order requiring arbitration, or to vacate
or enforce an arbitrator’s award shall be decided . . . in conformity
with the Federal Arbitration Act . . . .”).
12. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *2
(alteration in original).

7a
Appendix A
Articles 22.4(a) and 22.4(e).”13 Specifically, Eni contended
that Gulf violated Article 22.4(a) of the TUA by filing
an application to modify the pipeline to “accommodate
the planned liquefaction and export activities,” contrary
to Article 22.4(a)’s representation that Gulf’s “purpose
and object” was limited “strictly to importation and
regasification of LNG.”14
On June 29, 2018, the arbitration tribunal (the “First
Tribunal”) issued its Final Award, finding that “the
principal purpose of the TUA has been substantially
frustrated” and declaring the TUA terminated as of
March 1, 2016.15 The First Tribunal ordered Eni to pay
Gulf $462,199,000 as “just compensation . . . for the value
that their partial performance of the TUA conferred upon
Eni.”16 In language we will consider in more detail later in
this opinion, the arbitrators also stated that Eni’s breach
of contract claim against Gulf was rendered “academic
and deserves no further consideration” in light of their
frustration of purpose finding.17
B.
On September 28, 2018, Gulf sued Eni S.p.A.—Eni’s
indirect parent company—in New York state court under
13. Id.
14. Id.
15. 2019 Del. Ch. LEXIS 1403, [WL] at *3.
16. Id.
17. Id.

8a
Appendix A
the guarantee agreement between Gulf and Eni S.p.A.
(the “Guarantee Agreement”). Gulf argued that Eni
S.p.A. owed “as much as approximately $900,000,000 in
guaranteed obligations” for Reservation and Operating
Fees for the Pascagoula Facility running from the date
of the First Arbitration’s Final Award until the end of
the TUA’s twenty-year term.18 In the New York litigation,
Gulf claimed that, in the Guarantee Agreement, Eni
S.p.A. “specifically waived, ‘to the extent permitted by
law, any release, discharge, reduction or limitation of or
with respect to any sums owing by [Eni] or other liability
of [Eni] to [Gulf].’”19
On December 12, 2018, Eni S.p.A. filed its answer
and three counterclaims, alleging that the Guarantee
Agreement was terminated by Gulf’s “numerous and
widespread breaches of the TUA and related agreements.”
20
Eni S.p.A. argued that Gulf’s breaches of Article 22 of
the TUA “caused [Eni] substantial injury for which Eni
S.p.A. seeks damages and other relief.” 21
Around the time that Gulf initiated the New York
litigation, Gulf brought suit in the Delaware Court of
Chancery seeking to confirm the Final Award. Eni filed an
answer and asserted a counterclaim asking the Court of
Chancery to enter judgment in Eni’s favor by “confirming
18. Id.
19. Id. (alteration in original).
20. Id. (alteration in original).
21. Id.

9a
Appendix A
the Final Award in its entirety.”22 Gulf and Eni each moved
for judgment on the pleadings. On February 1, 2019, the
court entered a final judgment confirming the arbitration
award in favor of Gulf against Eni for $371,577,849. 23
C.
On June 3, 2019, following confirmation of the First
Award, Eni filed a second notice of arbitration (the “Second
Arbitration”). Eni asserted two counts for declaratory
relief and damages for Gulf’s alleged breach of the TUA
“by engaging in LNG liquefaction- and export-related
activities in direct contravention of the express terms
of at least Articles 22.4(a) and 22.4(e) of the TUA” and
a third claim for negligent misrepresentation seeking
“declaratory and other relief, in the form of damages
and/or restitution . . . as a result of Gulf’s wrongful
conduct” before the First Tribunal. 24 On June 17, 2019,
Gulf responded with this action in the Court of Chancery
under the FAA and 10 Del. C. §§ 5702, 5703(b), seeking
(i) a permanent injunction staying the Second Arbitration
22. Id.
23. Eni paid the judgment in full. The Court of Chancery’s
award in the confirmation proceeding was $371,577,849. It was
less than the original arbitration award of $418,649,000 because
amounts that Eni paid to Gulf were credited after the First Tribunal
corrected its opinion. App. to Opening Br. at A286-89 (Cross-Motions
for Judgment on the Pleadings Hr’g, Gulf LNG Energy, LLC v. ENI
USA Marketing LLC, 2018-0700-AGB, 2019 Del. Ch. LEXIS 398
(Del. Ch. Feb. 1, 2019) (TRANSCRIPT)).
24. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *4.

10a
Appendix A
and (ii) a «declaratory judgment that Eni . . . is barred
from maintaining or pursuing the Second Arbitration.” 25
Gulf moved for judgment on the pleadings to enjoin
Eni “from taking any further steps or actions in the
Second Arbitration other than to request that the Second
Arbitration be discontinued and dismissed at Eni’s cost.”26
On December 30, 2019, the Court of Chancery ruled
that (1) Eni was permanently enjoined from pursuing
its negligent misrepresentation claim in the Second
Arbitration; and (2) judgment was entered in favor of Eni
on Gulf’s declaratory and injunctive relief claims relating
to Eni’s breach of contract claim. 27
In its decision, the Court of Chancery rejected Eni’s
jurisdictional arguments. First, the court reviewed a long
line of cases enjoining collateral attacks on arbitration
awards. As noted by the Chancellor, these decisions hold
that the FAA is the exclusive review process once an
arbitration award issues. Collateral attacks in follow-on
proceedings are improper end runs around the FAA that
undermine the FAA’s goal of speedy and final resolution
of disputes.
Second, the Court of Chancery found that Eni’s
negligent misrepresentation claim was an improper
25. Id.
26. Id.
27. Gulf LNG Energy, LLC v. Eni USA Gas Marketing LLC,
2020 WL 136834, at *1 (Del. Ch. Jan. 10, 2020) (ORDER).

11a
Appendix A
collateral attack on the Final Award. As the court held,
Eni’s “ultimate objective in the Second Arbitration” was
to recapture “decommissioning costs it was required to
pay to satisfy the Final Award.” 28 The court likewise
found that Eni was also improperly seeking to “claw
back some or all of the damages that were awarded to
Gulf in an arbitration proceeding that is supposed to be
concluded.” 29 According to the court, “[i]f Eni had its
way, for all practical purposes, the finality of the Final
Award would be undone and the monetary recovery Gulf
obtained in the First Arbitration would be nullified.” 30
This result would be “the epitome of a collateral attack.” 31
The court also found that “the essence of Eni’s negligent
misrepresentation claim is that Gulf procured damages
in the First Arbitration by engaging in misconduct that
tainted the Final Award.” 32 Because “Eni made no effort
to seek to vacate the Final Award on this ground,” Eni
had “no right to bring a collateral attack now to ‘challenge
the very wrongs affecting the award for which review is
provided under section 10 of the Arbitration Act.’” 33
28. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *11.
29. Id.
30. Id.
31. Id.
32. Id.
33. Id. (quoting Corey v. N.Y. Stock Exch., 691 F.2d 1205, 1213
(6th Cir. 1982)); see also 2019 Del. Ch. LEXIS 1403, [WL] at *12
(“As a substantive matter, however, Eni’s misrepresentation claim
is a transparent tactic to claw back the damages it paid Gulf under
the Judgment for the purpose of reducing and potentially nullifying

12a
Appendix A
Finally, the Court of Chancery found that Eni’s breach
of contract claims did not collaterally attack the Final
Award. As the court held, “the First Tribunal never ruled
on [the contract claim], which it found to be academic in
view of its ruling that the TUA had been terminated for
frustration of purpose . . . .” 34 According to the court,
“given that the First Tribunal never reached the merits
of the claim for breaches of Articles 22.4(a) and 22.4(e) of
the TUA and never granted any relief based on that claim,
it cannot be said that Eni’s contract claim in the Second
Arbitration seeks to rectify ‘harm’ allegedly suffered
in the First Arbitration.” 35 Thus, the court concluded
that “it is up to the tribunal in the Second Arbitration to
determine whether the contract claim is arbitrable and,
if so, whether that claim would be precluded based on the
First Arbitration.” 36
D.
On appeal, Gulf argues that the Court of Chancery
erred when it refused to enjoin all claims in the Second
Arbitration. According to Gulf, the court’s focus should
have been on the harm alleged and the relief sought in the
Second Arbitration rather than the nature of the claims
or whether they were actually resolved. Because Eni
the substance of the damages award that Gulf obtained as a result
of the First Arbitration.”).

34. 2019 Del. Ch. LEXIS 1403, [WL] at *12.
35. Id.
36. Id.

13a
Appendix A
sought in the Second Arbitration to recoup its losses in the
First Arbitration, Gulf claims that the court should have
enjoined the Second Arbitration as an improper collateral
attack on the Final Award.
Eni cross-appealed, arguing that the Court of Chancery
lacked jurisdiction to enjoin the Second Arbitration in light
of the parties’ broad arbitration clause sending all disputes
to an arbitrator rather than the court. And, even if the
court had jurisdiction, Eni contends that the court erred
by enjoining Eni’s negligent misrepresentation claim as
a collateral attack on the Final Award. According to Eni,
the negligent misrepresentation claim is independent
from the Final Award. Rather than seeking to claw back
portions of the Final Award, Eni maintains, its negligent
misrepresentation claim implicates the parties’ broader
transaction under the Guarantee Agreement as raised in
the litigation in New York.
We review the Court of Chancery’s permanent
injunction order for an abuse of discretion. Embedded
legal conclusions are reviewed de novo. 37
II.
A.
We address jurisdiction first. In 1925 Congress
enacted the FAA, reflecting “a liberal policy favoring
arbitration” as well as the “fundamental principle that
37. Heartland Payment Sys., LLC v. Inteam Assocs., LLC, 171
A.3d 544, 570 (Del. 2017); N. River Ins. Co. v. Mine Safety Appliances
Co., 105 A.3d 369, 380-81 (Del. 2014).

14a
Appendix A
arbitration is a matter of contract.” 38 “The ‘principal
purpose’ of the FAA is to ‘ensur[e] that private arbitration
agreements are enforced according to their terms.’” 39
Depending on the language of the agreement, some
threshold questions are presumptively for the courts to
decide,40 and others are presumptively for the arbitrator
to decide. 41 According to the United States Supreme
Court, “any doubts concerning the scope of arbitrable
issues should be resolved in favor of arbitration, whether
the problem at hand is the construction of the contract
language itself or an allegation of waiver, delay, or a like
defense to arbitrability.”42
38. AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 339, 131
S. Ct. 1740, 179 L. Ed. 2d 742 (2011) (first quoting Moses H. Cone
Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24, 103 S. Ct. 927,
74 L. Ed. 2d 765 (1983); and then quoting Rent-A-Center, W., Inc. v.
Jackson, 561 U.S. 63, 67, 130 S. Ct. 2772, 177 L. Ed. 2d 403 (2010)).
39. Concepcion, 563 U.S. at 344 (alteration in original) (quoting
Volt Info. Scis., Inc. v. Bd. of Trs. of Leland Stanford Junior Univ.,
489 U.S. 468, 478, 109 S. Ct. 1248, 103 L. Ed. 2d 488 (1989)).
40. Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 84, 123
S. Ct. 588, 154 L. Ed. 2d 491 (2002) (“Thus, a gateway dispute about
whether the parties are bound by a given arbitration clause raises a
‘question of arbitrability’ for a court to decide.”).
41. Id. (“At the same time the Court has found the phrase
‘question of arbitrability’ not applicable in other kinds of general
circumstance where parties would likely expect that an arbitrator
would decide the gateway matter.”) (emphasis in original); see also
James & Jackson, LLC v. Willie Gary, LLC, 906 A.2d 76, 79 (Del.
2006) (explaining the difference between substantive and procedural
arbitrability).
42. Moses H. Cone, 460 U.S. at 24-25.

15a
Appendix A
Once an arbitration is completed, however, and
the parties have agreed that the FAA controls their
arbitration, Sections 10 and 11 of the FAA provide the
exclusive means to vacate, modify, or correct the award.43
Under the FAA, the court reviews the arbitration award.
Its review “is one of the narrowest standards of judicial
review in all of American jurisprudence” and is limited
to the narrow grounds warranting vacatur of the award
under the FAA.44 Section 10 of the FAA permits a court
to vacate an arbitration award procured by fraud; evident
partiality or corruption in the arbitrators; arbitrator
misconduct; or when the arbitrators “exceeded their
43. See Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576,
586, 128 S. Ct. 1396, 170 L. Ed. 2d 254 (2008) (“[T]he text [of the
FAA] compels a reading of the §§ 10 and 11 categories as exclusive.”);
Decker v. Merrill Lynch, Pierce, Fenner & Smith, Inc., 205 F.3d 906,
909 (6th Cir. 2000) (“Once an arbitration is conducted under a valid
arbitration contract, the FAA ‘provides the exclusive remedy for
challenging acts that taint an arbitration award.’”) (quoting Corey v.
N.Y. Stock Exch., 691 F.2d 1205, 1211 (6th Cir. 1982)); Auto Equity
Loans of Del., LLC v. Baird, 232 A.3d 1293, 2020 WL 2764752, at
*3 n.24 (Del. 2020) (TABLE) (explaining that Sections 10 and 11
of the FAA “provide the exclusive grounds for judicial review of
arbitration awards”).
44. Auto Equity Loans, 232 A.3d 1293, 2020 WL 2764752, at *3
(quoting SPX Corp. v. Garda USA, Inc., 94 A.3d 745, 750 (Del. 2014));
see also Hall St. Assocs., 552 U.S. at 588 (“[I]t makes more sense to
see the three provisions, §§ 9-11, as substantiating a national policy
favoring arbitration with just the limited review needed to maintain
arbitration’s essential virtue of resolving disputes straightaway.”);
Foster v. Turley, 808 F.2d 38, 42 (10th Cir. 1986) (“Because a primary
purpose behind arbitration agreements is to avoid the expense and
delay of court proceedings, it is well settled that judicial review of
an arbitration award is very narrowly limited.”).

16a
Appendix A
powers, or so imperfectly executed them that a mutual,
final, and definite award upon the subject matter submitted
was not made.”45 The court can modify or correct an award
under Section 11 for “material miscalculation,” when the
award addresses a matter not submitted to arbitration, or
if the award is imperfect in form but not on the merits.46 In
all cases, “a motion to vacate, modify, or correct an award
must be served . . . within three months after the award is
filed or delivered.”47 If the court does not vacate, modify,
or correct an award, the award can be confirmed with the
same force and effect as a court judgment.48

45. 9 U.S.C. § 10.
46. Id. § 11.
47. Id. § 12; Corey, 691 F.2d at 1212 (“Failure to comply with
this statutory precondition of timely service of notice forfeits the
right to judicial review of the award.”).
48. 9 U.S.C. § 9 (“If the parties in their agreement have agreed
that a judgment of the court shall be entered upon the award made
pursuant to the arbitration, and shall specify the court, then at
any time within one year after the award is made any party to the
arbitration may apply to the court so specified for an order confirming
the award, and thereupon the court must grant such an order unless
the award is vacated, modified, or corrected as prescribed in sections
10 and 11 of this title.”) (emphasis added); id. § 12 (“Notice of a
motion to vacate, modify, or correct an award must be served upon
the adverse party or his attorney within three months after the
award is filed or delivered.”); id. § 13 (“The judgment [confirming an
arbitration award] so entered shall have the same force and effect,
in all respects, as, and be subject to all the provisions of law relating
to, a judgment in an action; and it may be enforced as if it had been
rendered in an action in the court in which it is entered.”).

17a
Appendix A
Once court review under the FA A is finished,
the courthouse doors are closed to the dispute. Some
parties, however, have tried to open a new door by filing
a follow-on arbitration or legal proceeding. In the followon proceeding, the claims are changed but the goal is
the same—trying to undo a loss in the prior arbitration
award. Settled federal and state precedent recognizes
these follow-on proceedings as improper end runs around
the FAA’s exclusive review process. In the words of those
cases, they are improper collateral attacks on the earlier
final award.49
For instance, in Corey v. New York Stock Exchange,
the Sixth Circuit held that an arbitration claimant could
not circumvent the FAA review procedures by filing
a second proceeding challenging a prior arbitration
award. 50 The plaintiff’s claims of arbitrator bias in a
follow-on proceeding were “no more, in substance, than
an impermissible collateral attack on the award itself”
because the FAA “provides the exclusive remedy for
challenging acts that taint an arbitration award . . . .”51
According to the Sixth Circuit, the “complaint has no
purpose other than to challenge the very wrongs affecting
the award for which review is provided under section
49. See Tex. Brine Co., L.L.C. v. Am. Arbitration Assoc., Inc.,
955 F.3d 482, 487 (5th Cir. 2020) (“Judicial review in the arbitration
context is limited . . . . Further, purportedly independent claims are
not a basis for a challenge if they are disguised collateral attacks on
the arbitration award.”).
50. 691 F.2d 1205, 1212 (6th Cir. 1982).
51. Id. at 1211-12.

18a
Appendix A
10 of the [FAA].”52 The court also noted that allowing a
collateral attack on the arbitration award would render
Section 12’s three-month time bar “meaningless if a party
to the arbitration proceedings may bring an independent
direct action asserting such claims outside of the statutory
time period provided for in section 12.”53
Many other cases have followed this path. In
Prudential Securities Inc. v. Hornsby, the district court
enjoined a second arbitration because the plaintiff’s fraud
claim was “in reality, an attempt to augment and modify
the first arbitration award.”54 Looking at the statement of
claim, the court observed that it was “premised entirely
on the . . . fraudulent concealment of documents from the
original arbitration panel, misconduct in the proceeding
itself” and that the plaintiff “define[d] his injury by the
impact of [the] fraud on the original award.”55 As that
court explained, “[b]ecause the policies behind section
10 would be eviscerated if it were only an optional way
to modify an arbitration award, an attempt to modify an
award by a route or mechanism other than section 10 must
be enjoined.”56
In Decker v. Merrill Lynch, Pierce, Fenner & Smith,
Inc., the plaintiff who prevailed in an arbitration filed suit
52. Id. at 1213.
53. Id.
54. 865 F. Supp. 447, 451 (N.D. Ill. 1994).
55. Id.
56. Id.

19a
Appendix A
alleging Merrill Lynch interfered with the arbitration. 57
The district court dismissed the lawsuit and confirmed
the arbitration award. 58 The plaintiff responded by filing
a second arbitration that mirrored the allegations in her
earlier complaint. 59 The Decker court emphasized that
the prejudice complained-of “resulted from the impact
of this action on the arbitration award” and that the
claimant’s “ultimate objective in this damages suit is
to rectify the alleged harm she suffered by receiving a
smaller arbitration award than she would have received.”60
Because the FAA “provide[d] the exclusive remedy for
challenging acts that taint an arbitration award,” the
court enjoined the second arbitration and found that the
plaintiff’s only recourse was to move to vacate the award
under FAA procedure.61 The Sixth Circuit affirmed the
district court’s injunction, explaining that “[t]he FAA
provides the exclusive remedy for challenging acts that
taint an arbitration award whether a party attempts to
attack the award through judicial proceedings or through a
separate second arbitration.”62 The court refused to permit
the plaintiff to “bypass the exclusive and comprehensive
57. 205 F.3d 906, 908 (6th Cir. 2000).
58. Id.
59. Id. at 908-909.
60. Id. at 910.
61. Id. (“Because Decker chose to attack collaterally the
arbitration award in violation of the FAA, she fails to state a claim
upon which relief may be granted.”).
62. Id. at 911.

20a
Appendix A
nature of the FAA by attempting to arbitrate her claims
in a separate second arbitration proceeding.”63
Also, in Arrowood Indemnity Co. v. Equitas Insurance
Limited, the Southern District of New York enjoined a
second arbitration when certain Underwriters claimed
that Arrowood improperly withheld documents in the first
arbitration that would have shifted the first arbitration
panel’s interpretation of a “First Advised Clause.” 64
Relying on the FAA’s exclusivity as a means to challenge
an arbitration award, the district court noted that the
Underwriters’ “demand for reimbursement is explicitly
premised on their assertion that Arrowood ‘engaged in
intentional misconduct in the recent arbitration’” and the
“Underwriters want to recoup the post-Award billings
that ¶ 15 of the Award requires them to pay . . . .”65 Thus,
it was a collateral attack “in direct contravention of the
FAA” that “must be enjoined.”66
B.
The Court of Chancery followed the collateral attack
precedent and found that it had jurisdiction to enjoin
collateral attacks on prior arbitration awards. Eni
counters by pointing to the TUA’s arbitration provision,
63. Id.
64. 2015 U.S. Dist. LEXIS 99787, 2015 WL 4597543, at *3
(S.D.N.Y. July 30, 2015).
65. 2015 U.S. Dist. LEXIS 99787, [WL] at *6.
66. Id.

21a
Appendix A
where the parties agreed to submit “any and every kind
or type”67 of dispute to arbitration. According to Eni,
under the parties’ broad arbitration clause, an arbitrator
and not the court should decide what it characterizes as
the preclusive effect of the First Arbitration award on
the Second Arbitration. Eni points to the United States
Supreme Court’s recent decision in Henry Schein, Inc. v.
Archer & White Sales, Inc.,68 inferring from the Schein
decision that collateral attacks on arbitration awards now
fall under the parties’ arbitration provision. It also relies
on cases where arbitrators decided the res judicata effect
of prior awards.
In Schein, the Court struck down the “wholly
groundless” exception to the arbitrability analysis.69 The
Court relied on the text of the FAA as well as precedent
requiring that “[w]hen the parties’ contract delegates
the arbitrability question to an arbitrator, a court may
not override the contract . . . . [and] a court possesses no

67. Eni Answering Br. on Appeal & Opening Br. on CrossAppeal at 41-42.
68. 139 S. Ct. 524, 202 L. Ed. 2d 480 (2019).
69. 139 S. Ct. at 529 (“Even when the parties’ contract delegates
the threshold arbitrability question to an arbitrator, the Fifth Circuit
and some other Courts of Appeals have determined that the court
rather than an arbitrator should decide the threshold arbitrability
question if, under the contract, the argument for arbitration is
wholly groundless.”). Delaware has previously employed a “wholly
groundless” exception to questions of arbitrability. See McLaughlin
v. McCann, 942 A.2d 616, 626-27 (Del. Ch. 2008).

22a
Appendix A
power to decide the arbitrability issue.” 70 The Supreme
Court held that when the parties delegate gateway issues
of arbitrability to arbitrators by “clear and unmistakable”
evidence, courts may not employ a “wholly groundless”
exception to override the contractual will of the parties.71
In the res judicata cases, the courts found that the
preclusive effect of an arbitration award is for arbitrators
to decide.72
Neither Schein nor the res judicata cases control this
dispute. As the Court of Chancery noted, the Supreme
Court in Schein did not address, much less do away
with, a court’s jurisdiction to enjoin collateral attacks
on arbitration awards. And Gulf does not rely on res
70. Id.; see also Vertiv Corp. v. SVO Building One, LLC, 2019
U.S. Dist. LEXIS 56096, 2019 WL 1454953, at *3 (D. Del. Apr. 2, 2019)
(referring arbitrability question of whether the court could entertain
an injunction under the agreement to arbitrate to arbitrators because
“Henry Schein clarifies that there is no judicial exception available
when a contract makes a clear delegation”).
71. Id. at 529-30.
72. Citigroup, Inc. v. Abu Dhabi Inv. Auth., 776 F.3d 126,
131 (2d Cir. 2015) (without discussing collateral attacks, the court
“reason[ed] from our prior decisions interpreting the FAA that
the determination of the claim-preclusive effect of a prior federal
judgment confirming an arbitration award is to be left to the
arbitrators” where the arbitration clause “is sufficiently broad to
cover any dispute over whether ADIA’s current claims were or could
have been raised during the first arbitration”); John Hancock Mut.
Life Ins. Co. v. Olick, 151 F.3d 132, 139-40 (3d Cir. 1998) (without
discussing collateral attacks, the court decided the parties intended
an arbitrator to decide whether a prior arbitration had preclusive
effect on a follow-on arbitration).

23a
Appendix A
judicata or collateral estoppel to stop Eni from relitigating
claims that were, or could have been, raised in the First
Arbitration. Rather, Gulf asked the Court of Chancery to
enjoin Eni from circumventing the FAA’s exclusive and
limited review procedures by filing a second arbitration
attacking the Final Award.73
The Court of Chancery had jurisdiction to enjoin Eni
from pursuing the Second Arbitration. First, although the
parties agreed to a broad arbitration clause, under the
TUA they also agreed that “[t]he award of the arbitral
tribunal shall be final and binding” and they “waive[d]
any right to appeal from or challenge an arbitral decision
or award, or to oppose enforcement of any such decision
or award before a court or any governmental authority,
except with respect to the limited grounds for modification
or non-enforcement provided by an applicable arbitration
statute or treaty”—here the FAA.74 After the parties
completed an arbitration, they channeled all challenges
to an arbitration award to the courts through the FAA
review process. When a party files a follow-on proceeding
attacking a prior arbitration award, they circumvent the
contractually-agreed FAA review procedure. Stated
73. See Prudential Sec. Inc. v. Hornsby, 865 F. Supp. 447, 450
(N.D. Ill. 1994) (“Under the [FAA], an arbitration award is final
unless either party moves to vacate or modify the award under
section 10 within the three month time period prescribed by section
12 . . . . The strictures of section 10 and section 12 are designed to
afford an arbitration award finality in a timely fashion, promoting
arbitration as an expedient method of resolving disputes without
resort to the courts.”).
74. App. to Opening Br. at A251-252 (TUA Arts. 20.1 (h), (o)).

24a
Appendix A
another way, the follow-on proceeding is a “thinly
disguised effort . . . to re-arbitrate, in effect appeal,” the
prior award.75 When “carried to its logical conclusion”
a follow-on arbitration renders the “final and binding”
language of an arbitration clause “meaningless.” 76
Second, when the parties agreed that the FA A
controls review of an arbitration award, they signed
up for a court to apply an exclusive procedure and the
restrictions that accompany it.77 In the interest of finality,
the FAA allows only narrow grounds to modify, vacate,
or correct an arbitration award. A follow-on proceeding
starts from scratch. A nd a follow-on proceeding
collaterally attacking the prior arbitration award evades
the jurisdictional time limit for challenging the award—
three months from the award. A party who “bypass[es]
the exclusive and comprehensive nature of the FAA by
75. Federated Rural Elec. Ins. Exch. v. Nationwide Mut. Ins.
Co., 134 F. Supp. 2d 923, 927 (S.D. Ohio 2001).
76. Id. at 928.
77. Parties cannot contractually alter the FA A’s review
procedure, which the United States Supreme Court has confirmed
is exclusive. See Hall St. Assocs., 552 U.S. at 584 (“We now hold
that §§ 10 and 11 respectively provide the FAA’s exclusive grounds
for expedited vacatur and modification.”); accord Sutter v. Oxford
Health Plans LLC, 675 F.3d 215, 219 (3d Cir. 2012) (“These grounds
are exclusive and may not be supplemented by contract. In sum, when
parties agree to resolve their disputes before an arbitrator without
involving the courts, the courts will enforce the bargains implicit in
such agreements by enforcing arbitration awards absent a reason
to doubt the authority or integrity of the arbitral forum.”), aff’d, 569
U.S. 564, 133 S. Ct. 2064, 186 L. Ed. 2d 113 (2013).

25a
Appendix A
attempting to arbitrate her claims in a separate second
arbitration proceeding” 78 undermines the FAA’s goal of
a prompt, limited, exclusive, and final means to review
an arbitration award.79 “[T]he policies behind section 10
would be eviscerated if it were only an optional way to
modify an arbitration award.”80
We agree with the observation that “parties are
generally free to seek arbitration under a broad arbitration
78. Decker, 205 F.3d at 911.
79. See Pryor v. IAC/InterActiveCorp., 2012 Del. Ch. LEXIS
132, 2012 WL 2046827, at *6-7 (Del. Ch. June 7, 2012) (dismissing
breach of contract claim “with prejudice because the flaw that this
Count is an impermissible collateral attack on the Awards is not
curable by proceeding before the arbitrator at this belated stage”
despite concluding that “the question of the substantive arbitrability
of the fiduciary duty and contract claims [should] be determined by
the arbitrator, not this court”).
80. Prudential, 865 F. Supp. at 451. Eni raises for the first time
in its Reply Brief a recent decision, Certain Underwriters at Lloyd’s,
London v. Century Indem. Co., 2020 U.S. Dist. LEXIS 39242, 2020
WL 1083360 (D. Mass. Mar. 6, 2020). In that case, the defendant
filed a second arbitration after the plaintiff moved to confirm an
arbitration award, and subsequently the defendant moved to compel
arbitration causing the plaintiff to move to enforce the confirmed
arbitration award. 2020 U.S. Dist. LEXIS 39242, [WL] at *2-3. The
plaintiffs argued that the defendant was collaterally attacking the
arbitration award, but the defendant countered that the arbitration
award did not address the part of the parties’ agreement that it was
seeking to arbitrate. 2020 U.S. Dist. LEXIS 39242, [WL] at *3. The
district court rejected the plaintiff’s collateral attack theory, finding
that line of cases distinguishable because, as viewed by the district
court, the issue before it was a res judicata issue, not a collateral
attack. Id.

26a
Appendix A
clause” but “courts may intervene if the ‘ultimate objective
. . . is to rectify the alleged harm’ a party suffered from an
unfavorable arbitration award ‘by attempting to arbitrate
[its] claims in a separate arbitration proceeding.’”81 As the
Court of Chancery correctly observed,
it is not surprising that a decision applying the
collateral attack doctrine would not separately
consider the question of arbitrability. The point
of the doctrine is that a court may intervene to
dismiss litigation claims or to enjoin a second
round of arbitration based on a prior arbitration
in order to vindicate the policies of finality and
limited review of arbitration awards embedded
in the FAA notwithstanding the existence of a
broad arbitration clause. 82
III.
Having found that the Court of Chancery had
jurisdiction to enjoin collateral attacks on arbitration
awards, we turn next to whether Eni’s Second Arbitration
demand collaterally attacked the First Award. In its
Second Arbitration demand, Eni asserted three counts—
(1) declaratory relief that Gulf breached the TUA; (2)
damages and restitution for Gulf’s breaches of contract,
and (3) declaratory relief, damages, and restitution for
81. Arrowood, 2015 U.S. Dist. LEXIS 99787, 2015 WL 4597543,
at *5 (alteration in original) (quoting Decker, 205 F.3d at 910-11).
82. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *10
(emphasis in original).

27a
Appendix A
Gulf’s alleged negligent misrepresentations in the First
Arbitration. Eni sought by way of relief:
the value of the consent that Gulf was required
to obtain from Eni in order to pursue its
highly-profitable liquefaction/export project;
the amounts that Eni has had to pay to Gulf
for Gulf’s purported decommissioning of the
Pascagoula Facility; and the value resulting
from Gulf ’s repurposing and reuse of the
existing site facilities (such as the storage tanks,
pipeline and LNG vessel berthing facilities) and
the other cost savings and benefits derived from
repurposing the existing brownfield site. 83
The Court of Chancery enjoined arbitration of Eni’s
negligent misrepresentation claims, but declined to enjoin
Eni’s breach of contract claims. As the court held, Eni’s
negligent misrepresentation claim collaterally attacked
the Final Award because the alleged misrepresentations
were made in the First Arbitration and could have been
reviewed through the FAA process. When it came to Eni’s
breach of contract claims, however, the court held that “the
First Tribunal never reached the merits of the claim for
breach[] of [contract] and never granted any relief based
on that claim . . . .”84

83. App. to Opening Br. at A353 (Second Notice of Arbitration
¶ 64) (emphasis added).
84. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *12.

28a
Appendix A
Gulf and Eni challenge the Court of Chancery’s
ruling. Eni argues that the Court of Chancery erred
in enjoining its negligent misrepresentation claim
in the Second Arbitration because Eni succeeded in
terminating the TUA in the First Arbitration, has paid
the judgment, and supposedly does not seek to undo the
award. It also contends that its misrepresentation claim
has “independent significance in the circumstances of the
case unrelated to the Final Award.”85 Eni points to what
it alleges are perceived inconsistencies between what Gulf
was awarded in the First Arbitration and the positions
taken by Gulf in the New York litigation, and argues that
Gulf’s supposed tortious behavior implicates “the parties’
broader transaction and dealings as a whole.”86
Gulf argues that the court should have enjoined the
arbitration contract claims because, like Eni’s negligent
misrepresentation claim, they collaterally attack the Final
Award. 87 According to Gulf, when assessing a collateral
85. Eni Answering Br. on Appeal & Opening Br. on CrossAppeal at 46.
86. Id. at 47.
87. Compare App. to Opening Br. at A350-1 (Second Notice
of Arbitration ¶ 57) (“Gulf has engaged in widespread, regular and
continuous activities and undertakings that have a purpose and
object other than importation and regasification of LNG.”); with id.
at A057 (Final Award ¶ 16) (“Claimant asserted that, in any event, it
was entitled to terminate the TUA as a result of a series of alleged
contractual breaches by the Respondents. In particular, Eni argued
that [Gulf] breached the TUA by pursuing a gas liquefaction and
export project at the Pascagoula Facility, in contravention of the
express terms of the TUA . . . .”); and id. at A615 (First Notice of

29a
Appendix A
attack on a prior arbitration award, the question is not
the res judicata or collateral estoppel effect of the prior
arbitration award. Instead, the court must examine
the harm alleged and the relief sought in the Second
Arbitration to see whether it is a disguised attempt to
get a second review of a prior arbitration award outside
the FAA. Gulf argues that Eni’s Second Arbitration
collaterally attack the Final Award by two means—raising
alleged irregularities in the First Arbitration and trying
to recoup the restitution awarded Gulf in the First Award.
We agree with Gulf that the Court of Chancery should
have enjoined Eni from pursuing all claims in the Second
Arbitration. Rather than focus on the nature of the claims
in the Second Arbitration, the focus should have been on
whether Eni sought through the Second Arbitration to, in
effect, “appeal” the Final Award outside the FAA’s review
process. We find that it did.
First, as the Court of Chancery found, the crux of
Eni’s misrepresentation claim in the Second Arbitration is
that “Gulf procured damages in the First Arbitration by
engaging in misconduct that tainted the Final Award.”88
Arbitration ¶ 64) (“Eni USA hereby seeks a declaration that, through
the conduct of [Gulf] described above, [Gulf] ha[s] breached the
warranties and covenants set forth in at least Articles 22.4(a) and
22.4(e) . . . .”); see also id. at A353 (Second Notice of Arbitration ¶ 64)
(seeking damages in “the amounts that Eni has had to pay to Gulf
for Gulf’s purported decommissioning of the Pascagoula Facility”).

88. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *11
(“If Eni had its way, for all practical purposes, the finality of the Final
Award would be undone and the monetary recovery Gulf obtained

30a
Appendix A
Attacking the veracity of statements made in a First
Arbitration that led to the Final Award falls “’squarely
within the scope of section 10’ of the FAA,”89 which permits
vacatur of an award “where the award was procured by
corruption, fraud, or undue means.” 90 Eni could have
challenged Gulf’s representations as part of the FAA’s
review process and did not. The claim is time-barred
under the FAA.91

in the First Arbitration would be nullified. This is the epitome of a
collateral attack.”). In Eni’s Second Notice of Arbitration, it alleged
that “Gulf had an obligation to make accurate representations in
the arbitration and was aware that its statements would be used
and relied upon by Eni and the [First Arbitration] tribunal, and Eni
and the tribunal in fact relied on Gulf’s representations” and “[h]ad
Gulf not made these apparent misrepresentations, the compensation
amount paid by Eni for decommissioning costs would have been
greatly reduced, or reduced to zero.” App. to Opening Br. at 354
(Second Notice of Arbitration ¶¶ 73, 75).

89. Texas Brine, 955 F.3d at 489 (quoting Corey, 691 F.2d at
1212). See also, e.g., Decker, 205 F.3d at 911 (“The FAA provides
the exclusive remedy for challenging acts that taint an arbitration
award whether a party attempts to attack the award through judicial
proceedings or through a separate second arbitration.”); Prudential,
865 F. Supp. at 451 (enjoining second arbitration where the “claim is
premised entirely on the [sic] Prudential’s fraudulent concealment
of documents from the original arbitration panel, misconduct in the
proceeding itself”).
90. 9 U.S.C. § 10; see Texas Brine, 955 F.3d at 489 (“Alleging
wrongdoing that would justify vacatur is a sign of a collateral
attack.”).
91. 9 U.S.C. § 12.

31a
Appendix A
Second, when addressing Eni’s breach of contract
claims, the court appears to have applied elements of
res judicata in its analysis. It considered whether Eni’s
breach of contract claims had been decided in the First
Arbitration. Had res judicata or collateral estoppel
been the issue, referring the arbitrability question to
the arbitrators would have been a different issue.92 But
a collateral attack does not hinge upon the nature of the
claims or whether they were actually resolved in the
prior arbitration. If that was the case, Eni would be free
to raise in the Second Arbitration irregularities in the
First Arbitration—claims exclusively within Section
10 of the FAA.93 Instead, as noted earlier, the inquiry
is whether the complainant’s “ultimate objective” is to
“rectify the alleged harm [the claimant] suffered” in the
first arbitration.94
92. See Citigroup, 776 F.3d at 131 (holding that claim preclusive
effect of federal judgment confirming an award is a question for
arbitrators to decide in second arbitration).
93. See Texas Brine., 955 F.3d at 488 (“The test for a collateral
attack is not merely whether the claims attempt to relitigate the facts
and defenses that were raised in the prior arbitration.”) (internal
quotation marks omitted).
94. Decker, 205 F.3d at 910; Arrowood, 2015 U.S. Dist. LEXIS
99787, 2015 WL 4597543, at *5 (“Although parties are generally
free to seek arbitration under a broad arbitration clause, courts
may intervene if the ‘ultimate objective . . . is to rectify the alleged
harm’ a party suffered from an unfavorable arbitration award ‘by
attempting to arbitrate [its] claims in a separate second arbitration
proceeding.’”) (alteration in original) (quoting Decker, 205 F.3d at
910-11); Prudential, 865 F. Supp. at 451 (refusing an “attempt to
arbitrate an ‘independent’ fraud claim” that was “premised entirely

32a
Appendix A
Although Eni tacks on other requested relief, in the
Second Arbitration Eni essentially seeks to recover “the
amounts that Eni has had to pay to Gulf [under the Final
Award] for Gulf’s purported decommissioning of the
Pascagoula Facility . . . .”95 Eni tries to back away from
this admission with several arguments, none of which are
persuasive.
Eni argues that the collateral attack cases are limited
to irregularities in arbitrations and do not extend to
substantive claims. That is incorrect,96 and ignores the
fundamental reason why courts redress collateral attacks
on arbitration awards—to prevent end runs around the
exclusive FAA review process.
on [alleged] fraudulent concealment of documents from the original
arbitration panel, misconduct in the proceedings itself”); Phillips
Petroleum Co. v. Arco Alaska, Inc., 1988 Del. Ch. LEXIS 77, 1988
WL 60380, at *5 (Del. Ch. June 14, 1988) (“Authorities interpreting
the relevant arbitration statutes hold that a claim that a party’s
prior conduct tainted an arbitration award must be raised in a
proceeding to vacate the award. That same body of law proscribes
an independent action to challenge the arbitration award.”).

95. App. to Opening Br. at A353 (Second Notice of Arbitration
¶ 64).
96. Decker, 205 F.3d at 910-11 (contract and tort claims brought
in follow-on proceeding that did not “directly challenge the [prior]
arbitration award” collaterally attacked the prior award); Gulf Petro
Trading Co., Inc. v. Nigerian Nat’l Petroleum Corp., 512 F.3d 742.
749-50 (5th Cir. 2008) (claims separate from the claims in a prior
arbitration collaterally attacked the prior arbitration); Corey, 691
F.2d at 1212-13 (holding that a claimant “may not transform what
would ordinarily constitute an impermissible collateral attack into
a proper independent action by changing defendants and altering
the relief sought”).

33a
Appendix A
Eni also notes that it sought to recover damages and
not just the restitution it was required to pay under the
Final Award. While Eni characterized its request for
relief in the Second Arbitration as damages, it elevates
pleading over substance. Eni sought to recoup as damages
the amount it paid in restitution. And the First Tribunal
already considered whether “deductions should be
applied” to reduce the restitution award.97 Allowing Eni
to re-arbitrate deductions to the restitution award would
give Eni a mulligan for the First Arbitration. If it was
dissatisfied with the result, or was entitled to other relief,
it could have sought review under the FAA.98
Finally, Eni argues that its contract claims have
“independent legal significance,” and Eni “need only
be able to allege wrongdoing that has caused harm
97. App. to Opening Br. at A136 (Final Award ¶ 359).
98. 9 U.S.C. § 10(a)(4) (vacatur permitted where the arbitrators
“so imperfectly executed [their powers] that a mutual, final, and
definite award upon the subject matter submitted was not made”);
see also Gulf Petro, 512 F.3d at 750 (“The relief Gulf Petro seeks—the
award it believes it should have received, as well as costs, expenses,
and consequential damages stemming from the unfavorable award
it did receive—shows that its true objective in this suit is to rectify
the harm it suffered in receiving the unfavorable Final Award.”);
ErgoBilt, Inc. v. Neutral Posture Ergonomics Inc., 2002 U.S. Dist.
LEXIS 12459, 2002 WL 1489521, at *9 (N.D. Tex. July 9, 2002)
(denying leave to file supplemental complaint where the court
found “that Plaintiffs’ proposed breach of contract action raises
the same issues presented by their Motion to Vacate. In fact, the
relief requested . . . is exactly the relief Plaintiffs seek by vacating
the award, namely, a reduction or offset in the amount of attorney’s
fees awarded by the arbitrator”).

34a
Appendix A
independent of its effect on the arbitration award to avoid
the collateral attack label.” 99 Eni appears to make this
argument because it wants to assert its breach of contract
claims in defense of the Guarantee Agreement litigation. It
is unclear how Eni’s defenses in another proceeding bear
on the issues before us. In any event, Gulf states that Eni
has been able to raise its breach of contract claims as a
defense in the Guarantee Agreement litigation.100
Under these circumstances, Eni’s breach of contract
claims aim to modify the Final Award by revisiting the
core issue in the First Arbitration—was the contract
terminated and, if so, what is the appropriate remedy?101
Had Eni wished to clarify, amend, or challenge the First
Arbitration’s financial award, it should have done so under
the FAA within the three-month limitations period.102
99. Eni Answering Br. on Appeal & Opening Br. on CrossAppeal at 23 (quoting Gulf Petro, 512 F.3d at 751).
100. Gulf Reply Br. on Appeal & Answering Br. on CrossAppeal at 17-18.
101. See Prudential, 865 F. Supp. at 451 (finding allegedly
independent fraud claim was “in reality, an attempt to augment
and modify the first arbitration award”); Arrowood, 2015 U.S. Dist.
LEXIS 99787, 2015 WL 4597543, at *6 (“Under these circumstances,
the Second Arbitration demand to recover sums already paid
amounts to a collateral attack on the merits of the Award.”).
102. 9 U.S.C. § 12. The FAA permits vacatur “where the
arbitrators . . . so imperfectly executed [their powers] that a mutual,
final, and definite award upon the subject matter submitted was not
made.” 9 U.S.C. § 10(a)(4). “An award is mutual, definite and final if it
‘resolve[s] all issues submitted to arbitration, and determine[s] each
issue fully so that no further litigation is necessary to finalize the

35a
Appendix A
Now, “[s]uch arbitral mulligans are forbidden by the
FAA.”103 Eni’s contract claims collaterally attack the Final
Award and should have been enjoined.
IV.
We affirm in part and reverse in part the Court of
Chancery’s judgment, and remand with instructions
for the court to modify its permanent injunction order
to enjoin Eni from pursuing all claims in the Second
Arbitration. Jurisdiction is not retained.

obligations of the parties.” ConnTech Dev. Co. v. Univ. of Conn. Educ.
Props., Inc., 102 F.3d 677, 686 (2d Cir. 1996) (alteration in original)
(quoting Dighello v. Busconi, 673 F. Supp. 85, 90 (D. Conn. 1987),
aff’d, 849 F.2d 1467 (2d Cir. 1988)); see also Three Bros. Trading,
LLC v. Generex Biotechnology Corp., 2020 U.S. Dist. LEXIS 72600,
2020 WL 1974243, at *6 (S.D.N.Y. Apr. 24, 2020) (vacating and
remanding a portion of an arbitration award under Section 10(a)(4)
where arbitrator did not reach “any conclusion” on economic value
of warrants and “would undoubtedly result in further litigation to
determine the economic value of the warrants”).

103. Arrowood, 2015 U.S. Dist. LEXIS 99787, 2015 WL
4597543, at *5.

36a
Appendix A
VAUGHN, Justice, dissenting:
The Majority discusses four cases in part II. A. of
its opinion. None of them appear to have involved an
arbitration clause as broad as the one involved here.
The arbitration clause in Corey v. New York Stock
Exchange was contained in the constitution of the stock
exchange.1 It provided, in relevant part, that “[a]ny
controversy . . . shall . . . be submitted for arbitration.” 2
The arbitration clause at issue in Arrowood Indemnity
Co. v. Equitas Insurance Ltd. provided, in relevant part,
that “if any dispute shall arise . . . with reference to the
interpretation of this Contract . . . the dispute shall be
referred to three arbitrators.” 3 In Decker v. Merrill
Lynch, Pierce, Fenner and Smith, Inc., no contractual
arbitration language appears, but plaintiff Decker
contended that her claims fell “within the scope of a valid
arbitration agreement and thus must be arbitrated.”4 In
Prudential Securities Inc. v. Hornsby,5 no mention is
made of the language of the arbitration agreement. None
of these cases appear to be ones where the parties evinced
a “clear and unmistakable” agreement to arbitrate the
issue of arbitrability, and they do not discuss arbitration
language as broad as the arbitration provisions of the
agreement in this case.
1. 691 F.2d 1205, 1207 n.2 (6th Cir. 1982).
2. Id.
3. 2015 U.S. Dist. LEXIS 99787, 2015 WL 4597543, at *1
(S.D.N.Y. July 30, 2015).
4. 205 F.3d 906, 911 (6th Cir. 2000).
5. 865 F. Supp. 447 (N.D. Ill. 1994).

37a
Appendix A
The Chancellor recognized there are “two different
lines of authority concerning the arbitration of disputes
under the FAA[:]” one that enforces the “policy against
collateral attacks on arbitration awards” and one that
interprets “broad arbitration clauses as written on the
question of arbitrability.” 6 In addition to discussing
three of the above-mentioned cases from the first line of
authority, he discussed two cases from the second line of
authority. One is John Hancock Mutual Life Insurance Co.
v. Olick.7 A question involved there was whether a prior
arbitration precluded claims raised in a second arbitration.
As stated by the Third Circuit, the court considered “the
question of whether, under the [FAA], a district court has
the authority, notwithstanding a valid arbitration clause,
to enjoin a party from pursuing arbitration on res judicata
grounds arising from both a prior arbitration and a prior
judgment.”8 In the part of its analysis discussing “Res
judicata Based on the Prior Arbitration[,]” the court set
forth the following test:
[T]he judicial inquiry before compelling or
enjoining arbitration is narrow, and the FAA
authorizes the district court to explore only two
threshold questions in considering a demand
for arbitration: (1) Did the parties seeking
or resisting arbitration enter into a valid
6. Gulf LNG Energy, LLC v. Eni USA Gas Marketing LLC,
2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *1, *4 (Del. Ch.
Dec. 30, 2019).
7. 151 F.3d 132 (3d Cir. 1998).
8. Id. at 133.

38a
Appendix A
arbitration agreement? (2) Does the dispute
between those parties fall within the language
of the arbitration agreement?9
Elaborating on this test, the court reasoned that
“the proper analytical inquiry mandated under the FAA
is to focus on both the existence of a valid arbitration
agreement and the nature of that agreement as it relates
to the parties’ current dispute.”10 The court concluded
that “Hancock’s res judicata objection based on the prior
arbitration is an issue to be arbitrated and is not to be
decided by the courts.”11 The court explained its rationale
as follows:
The reasoning underlying this approach is that
a provision regarding the finality of arbitration
awards is a creature of contract and, like any
other contractual provision that is the subject of
dispute, it is within the province of arbitration
unless it may be said “with positive assurance”
that the parties sought to have the matter
decided by a court.12

9. Id. at 139 (citing In re Prudential Ins. Co. of Am. Sales
Practice Litig., 133 F.3d 225, 228, 233 (3d Cir. 1998)).
10. Id.
11. Id. at 140.
12. Id. at 139 (citing Local 103 of International Union of
Electrical, Radio and Machine Workers v. RCA Corp., 516 F.2d
1336, 1340 (3d Cir. 1975)).

39a
Appendix A
The other case in this second “line of authority”
discussed by the Chancellor is Citigroup, Inc. v. Abu
Dhabi Investment Authority.13 In that case, there was
an arbitration award that was confirmed by the District
Court for the Southern District of New York. While the
confirmation in the district court was still pending, Abu
Dhabi (ADIA) served Citigroup with a new notice for a
second arbitration. Citigroup sought to enjoin the second
arbitration “on the ground that ADIA’s new claims were
barred by the doctrine of claim preclusion, or res judicata,
because they were or could have been raised in the first
arbitration.”14
The Second Circuit concluded that arbitrators
should decide the claim-preclusive effect of the judgment
confirming the first arbitration award. Its explanation of
that conclusion included the following reasoning:
The FAA’s policy favoring arbitration and our
precedents interpreting that policy indicate
that it is the arbitrators, not the federal
courts, who ordinarily should determine the
claim-preclusive effect of a federal judgment
that confirms an arbitration award. . . . We
reason from our prior decisions interpreting
the FAA, that the determination of the claimpreclusive effect of a prior federal judgment
confirming an arbitration award is to be left to
the arbitrators.15
13. 776 F.3d 126 (2d Cir. 2015).
14. Id. at 128.
15. Id. at 131.

40a
Appendix A
The Majority seems to dismiss these cases as “res
judicata cases” that do not discuss collateral attacks,
as though the attorneys who sought to enjoin a second
arbitration in those cases just made the wrong arguments.
I do not think the cases are so easily disposed of. In John
Hancock, the court stated that the question presented was
a question “under the [FAA].”16 In Citigroup, the court
discusses the “FAA’s policy favoring arbitration.”17 It is
hard for me to imagine that the distinction between res
judicata and collateral attack would have led to different
outcomes in those cases.
The United States Supreme Court has held that the
“question whether the parties have submitted a particular
dispute to arbitration, i.e., the ‘question of arbitrability,’
is ‘an issue for judicial determination [u]nless the parties
clearly and unmistakably provide otherwise.’” 18 The
Chancellor found that the contract in this case evinces a
“clear and unmistakable” agreement to arbitrate the issue
of arbitrability,19 a finding which I think is undeniable
given the breadth of the arbitration language.
The parties agreed to arbitrate “any dispute,”
and “dispute” is defined to include “any dispute over
16. 151 F.3d at 133.
17. 776 F.3d at 131.
18. Gulf, 2019 Del. Ch. LEXIS 1403, 2019 WL 7288767, at *6
(quoting Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83,
123 S. Ct. 588, 154 L. Ed. 2d 491 (2002)).
19. 2019 Del. Ch. LEXIS 1403, [WL] at *7.

41a
Appendix A
arbitrability or jurisdiction.” 20 I would enforce the
agreement as written and find that the arbitrability of
Eni’s negligent misrepresentation and breach of contract
claims are issues to be decided by arbitrators, not the
courts. I would reverse the Court of Chancery order
permanently enjoining Eni from pursuing its negligent
misrepresentation claim in the second arbitration.

20. Id.

42a
Appendix B
Appendix b — memorandum
opinion of
the court of chancery of the state of
delaware, dated december 30, 2019
IN THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
C.A. No. 2019-0460-AGB
GULF LNG ENERGY, LLC and GULF
LNG PIPELINE, LLC,
Plaintiffs,
v.
ENI USA GAS MARKETING LLC,
Defendant.
MEMORANDUM OPINION
September 11, 2019, Submitted
December 30, 2019, Decided
BOUCHARD, C.
In February 2019, this court entered an order and
final judgment confirming an arbitration award in favor of
Gulf LNG Energy, LLC and Gulf LNG Pipeline, LLC and
against Eni USA Gas Marketing LLC for approximately
$371.5 million. The judgment was the culmination of an
arbitration proceeding that also resulted in the termination

43a
Appendix B
of a contract among the parties concerning Eni’s use of
a liquefied natural gas terminal in Mississippi that the
Gulf entities constructed and own. Entry of the judgment,
however, did not end the parties’ legal entanglements.
In September 2018, the Gulf entities sued Eni’s
parent company in New York state court to enforce a
payment guarantee. In June 2019, Eni began a second
arbitration against the Gulf entities asserting two discrete
claims for negligent misrepresentation and breach of
contract. The filing of the second arbitration prompted
this lawsuit, in which the Gulf entities seek entry of a
permanent injunction to enjoin Eni from pursuing the
second arbitration.
Pending before the court is the Gulf entities’ motion
for judgment on the pleadings. The motion brings to
center stage two different lines of authority concerning
the arbitration of disputes under the Federal Arbitration
Act—one that allows courts to intervene to prevent
collateral attacks on arbitration awards; the other that
enforces the contractual intent of parties on questions of
arbitrability. For the reasons explained below, the court
reaches different conclusions as to Eni’s two new claims
in resolving the pending motion based on these two lines
of authority.
F i r st , t he cou r t f i nd s t hat En i’s negl igent
misrepresentation claim in the second arbitration
constitutes an impermissible collateral attack that seeks
to undo the damages award from the first arbitration.
Accordingly, as to that claim, the court grants the Gulf

44a
Appendix B
entities’ motion and will enter a permanent injunction to
enjoin Eni from pursuing the negligent misrepresentation
claim in the second arbitration.
Second, the court finds that Eni’s contract claim, which
was pled but never decided in the first arbitration, does
not amount to a collateral attack of the first arbitration
award. Accordingly, as to that claim, the court denies the
Gulf entities’ motion and, in view of the broad arbitration
clause in the parties’ contract, leaves it to the tribunal in
the second arbitration to determine whether that claim is
arbitrable and, if so, whether the claim would be precluded
based on the first arbitration.
I. 	BACKGROUND
The facts recited in this opinion come from the
parties’ pleadings, documents incorporated therein, and
the parties’ submissions.1 Unless otherwise noted, these
facts are not in dispute.
A. 	The Parties
Plaintiff Gulf LNG Energy, LLC, a Delaware limited
liability company, owns and operates the liquefied
natural gas (“LNG”) terminal at the Pascagoula Facility
in Mississippi. 2 The purpose of the LNG terminal is to
facilitate the import of LNG by ship into the United
1. Verified Complaint for Injunctive Relief (Dkt. 1); Defendant’s
Answer to Verified Complaint for Injunctive Relief (Dkt. 12).
2. Answer ¶ 9.

45a
Appendix B
States. 3 Plaintiff Gulf LNG Pipeline, LLC, a Delaware
limited liability company, owns and operates a five-mile
long pipeline that delivers and distributes natural gas
from the Pascagoula Facility to downstream inland
pipelines.4 This decision refers to Gulf LNG Energy, LLC
and Gulf LNG Pipeline, LLC together as “Gulf” or the
“Gulf entities.”
Defendant Eni USA Gas Marketing LLC (“Eni”),
a Delaware limited liability company, is in the business
of marketing natural gas products and performing
related services in the United States. 5 Eni is an indirect
subsidiary of Eni S.p.A., an Italian corporation in the oil
and gas industry.6
B. 	The Terminal Use Agreement
On December 8, 2007, Gulf and Eni entered into
the Terminal Use Agreement (“TUA”), which provided
that Gulf would construct the Pascagoula Facility.7 Eni
planned to use the Pascagoula Facility to receive, store,
regasify, and deliver LNG to downstream pipelines in
the United States. 8 Under the TUA, Eni agreed to pay
3. Id.
4. Id. ¶ 10.
5. Id. ¶ 11.
6. Id.
7. Id. ¶ 15; Compl. Ex. C (“TUA”).
8. Compl. ¶ 15.

46a
Appendix B
Gulf various fees for the use of the Pascagoula Facility,
including monthly fees known as “Reservation Fees”
and “Operating Fees.” 9 The initial term of the TUA
commenced on December 8, 2007 and runs for twenty
years from the “Commercial Start Date.”10
Gulf alleges it incurred substantial debt and spent
over $1 billion to construct the Pascagoula Facility,11
which became operational on October 1, 2011.12 Apart from
an initial import of LNG when the Facility first became
operational, Eni did not use the Pascagoula Facility.13
Five provisions in the TUA are relevant to the present
dispute. In Article 22.4(a), Gulf covenanted to “observe and
comply with [Article 22.2(f)] in all respects.”14 In Article
22.2(f), the Gulf entities represented and warranted that
their “Constitutive Documents” will limit their purpose
to, among other things, constructing, operating, and
maintaining the Pascagoula Facility.15
Article 22.4(e) requires Gulf to receive “reasonable
consideration” for any transaction it engages in with
9. TUA Art. 11.1(b).
10. See id. at 1, Arts. 1.32, 1.178.
11. Compl. ¶ 16.
12. Answer ¶ 16.
13. Id.
14. TUA Art. 22.4(a).
15. Id. Art. 22.2(f).

47a
Appendix B
an “Affiliate.”16 Article 18.1 provides Eni with the right
to terminate the TUA early if Gulf violates, among
other provisions, Articles 22.4(a) or 22.4(e).17 Finally,
as discussed further below, Article 20.1(a) of the TUA
contains a broad arbitration clause.18
C. 	Eni Initiates the First Arbitration Against
Gulf
On March 2, 2016, Eni filed a notice of arbitration
with the American Arbitration Association, International
Centre for Dispute Resolution, asserting claims against
Gulf (the “First Arbitration”).19 Eni’s arbitration notice
contended that, since the parties entered into the TUA, the
natural gas market in the United States “has experienced
radical change” due, in particular, to “the unforeseen,
vast new production and supply of shale gas in the United
States [that] made import of LNG into the United States
economically irrational and unsustainable.” 20
In the First Arbitration, Eni sought, among other
relief, (i) a declaration that “the essential purpose of
the TUA has been frustrated and that the TUA has
16. Id. Art. 22.4(e). “Affiliate” is defined to mean “a Person
. . . that directly or indirectly controls, is controlled by, or is under
common control with, another Person.” Id. Art. 1.7.
17. Id. Art. 18.1.
18. See Part II.B.
19. Dkt. 38.
20. Id. ¶ 3.

48a
Appendix B
terminated” because of a “fundamental and unforeseeable
change in the United States natural gas/LNG market,” 21
and (ii) a declaration that Eni could terminate the TUA
at any time under Article 18.1 because the Gulf entities
“have breached the warranties and covenants set forth in
at least Articles 22.4(a) and 22.4(e)” of the TUA. 22 With
respect to its second requested declaration, Eni asserted
that Gulf violated Article 22.4(a) because Gulf had filed
an application to modify the pipeline to “accommodate
the planned liquefaction and export activities” contrary
to the representation in Article 22.4(a) that the “purpose
and object” of the Gulf entities was limited “strictly to
importation and regasification of LNG.” 23
On June 29, 2018, the arbitration tribunal (“the First
Tribunal”) issued its Final Award. 24 The First Tribunal
held that “the principal purpose of the TUA has been
substantially frustrated” and declared that the TUA was
terminated as of March 1, 2016. 25 The First Tribunal
ordered Eni to pay the Gulf entities $462,199,000 as
“just compensation . . . for the value that their partial
performance of the TUA conferred upon Eni.” 26 This
amount represents the sum of (i) restitution for “Eni’s
21. Id. ¶¶ 57, 59.
22. Id. ¶ 64.
23. Id. ¶¶ 48, 61.
24. Compl. Ex. B (“Final Award”).
25. Id. ¶ 346.
26. Id. ¶ 403.

49a
Appendix B
proportionate share of the decommissioning costs”
($418,649,000) and (ii) 5% of the remaining TUA contract
value ($43,550,000) as “compensation for all additional
benefits conferred on Eni pursuant to the acquisition of
the TUA capacity as part of the Angola Project.” 27 Gulf
also was awarded interest since the hearing date on the
restitution amount. 28
The First Tribunal did not decide whether Gulf
breached the TUA. It explained that the breach of
contract claim was “academic and deserves no further
consideration” because First Tribunal already had
declared that the TUA’s purpose had been frustrated. 29
D.

Gulf Sues Eni S.p.A. in New York State Court

On September 28, 2018, Gulf sued Eni S.p.A.—Eni’s
parent company—in New York state court (the “New
York Action”). 30 The New York Action concerns a dispute
over a payment guarantee (the “Guarantee Agreement”)
27. Id. ¶¶ 401, 403. The “Angola Project” refers to Eni’s
purchase of a 13.6% stake in Angola LNG Limited to “increase its
gas business in Angola.” Id. ¶¶ 42, 45, 159. The terms of the deal
included “i) a payment of $260 million, and ii) the acquisition by Eni
of the residual regasification capacity at [the] Pascagoula Facility.”
Id. ¶ 42. “Decommissioning costs” are the costs associated with
returning the LNG terminal at the Facility “to the condition it was
prior to entering the contract.” Id. ¶ 351.
28. Id. ¶ 403.
29. Id. ¶ 347.
30. Compl. Ex. G.

50a
Appendix B
between Gulf and Eni S.p.A. 31 Specifically, Gulf contends
that Eni S.p.A. owes it “as much as approximately
$900,000,000 in guaranteed obligations” under the
Guarantee Agreement for Reservation and Operating
Fees concerning the Pascagoula Facility running from the
date of the Final Award until the end of the TUA’s initial
twenty year term. 32 Gulf advances this claim even though
the First Tribunal ruled that the TUA was terminated
on the theory that Eni S.p.A “specifically waived, ‘to the
extent permitted by law, any release, discharge, reduction
or limitation of or with respect to any sums owing by [Eni]
or any other liability of [Eni] to [Gulf].’” 33
On December 12, 2018, Eni S.p.A. filed its answer
and three counterclaims in the New York Action. 34 Eni
S.p.A. asserts, among other things, that “the Guarantee
Agreement has terminated due to [Gulf’s] numerous
and widespread breaches of the TUA and related
agreements”—in particular Article 22 of the TUA—and
that Gulf’s “breaches have also caused [Eni] substantial
injury for which Eni S.p.A. seeks damages and other
relief.” 35

31. Id. ¶ 1.
32. Id. ¶¶ 1, 37, 72.
33. Id. ¶ 69 (quoting Guarantee Agreement § 3.2).
34. Pls.’ Suppl. Br. Ex. 1 (Dkt. 33).
35. Id. at 2, 13, 22.

51a
Appendix B
E. 	The Court Enters Judgment on the Final
Award
On September 25, 2018, Gulf filed an action in this
court to confirm the Final Award in the First Arbitration
and enter judgment against Eni requiring it to pay
Gulf the amount of the Final Award that remained
outstanding. 36 On October 23, 2018, Eni filed its answer
and counterclaim. 37 In its counterclaim, Eni asked the
court to enter judgment in Eni’s “favor confirming the
Final Award in its entirety.” 38
In November and December 2018, Gulf and Eni each
filed motions for judgment on the pleadings to confirm
the Final Award, although they disagreed on certain
aspects of the language to be included in a final order
and judgment. 39 After filing their respective motions,
the parties engaged in negotiations and narrowed their
disputes. During a hearing held on February 1, 2019, the
court resolved the parties’ remaining disagreements over
the language of the final order and judgment,40 which it
entered later that day (the “Judgment”).41 The Judgment
36. C.A. No. 2018-0700-AGB (“Confirmation Action”), Dkt. 1
¶¶ 1, 48.
37. Confirmation Action, Dkt. 8.
38. Confirmation Action, Dkt. 8 at 39.
39. See Confirmation Action, Dkts. 14, 20.
40. Confirmation Action, Dkt. 47 at 44-49.
41. Confirmation Action, Dkt. 45.

52a
Appendix B
recites that “both Gulf LNG and ENI USA agree that
the Final Award should be confirmed in its entirety”
and entered judgment “in favor of Gulf LNG and against
ENI USA in the amount of $371,577,849, 42 which Eni
subsequently paid in full.43
F. 	Eni Initiates the Second Arbitration Against
Gulf
On June 3, 2019, Eni filed a second notice of arbitration
with the American Arbitration Association, International
Centre for Dispute Resolution, asserting three claims
against Gulf (the “Second Arbitration”) 44 . The first
two claims seek declaratory relief and damages based
on Gulf’s alleged breach of “the TUA by engaging in
LNG liquefaction-and export-related activities in direct
contravention of the express terms of at least Articles
22.4(a) and 22.4(e) of the TUA.”45 The third claim, for
negligent misrepresentation, seeks “declaratory and
other relief, in the form of damages and/or restitution
. . . as a result of Gulf’s wrongful conduct” before the
First Tribunal.46 These claims are discussed in greater
detail below.

42. Confirmation Action, Dkt. 45 ¶ 3.
43. Answer ¶¶ 4-5.
44. Compl. Ex. F (“Second Arbitration Notice”).
45. Id. ¶¶ 66-67, 69-70.
46. Id. ¶ 76.

53a
Appendix B
G. 	Procedural History
On June 17, 2019, Gulf filed this action under the
Federal Arbitration Act (“FAA”) and 10 Del. C. §§ 5702
and 5703(b), seeking two forms or relief: (i) “a permanent
injunction staying the Second Arbitration” (Count I) and
(ii) “a declaratory judgment that Eni . . . is barred from
maintaining or pursuing the Second Arbitration” (Count
II).47 On July 9, 2019, Gulf filed a motion for judgment
on the pleadings on Count I to enjoin Eni “from taking
any further steps or actions in the Second Arbitration
other than to request that the Second Arbitration be
discontinued and dismissed at Eni’s cost.”48 Briefing
and argument on this motion, including supplemental
submissions, was completed on September 11, 2019.
II. ANALYSIS
Under Court of Chancery Rule 12(c), the court may
grant a motion for judgment on the pleadings “when no
material issue of fact exists and the movant is entitled to
47. Compl. ¶¶ 12, 58, 61. Section 5702 of the Delaware Uniform
Arbitration Act provides, in relevant part, that “any application to
the Court of Chancery to enjoin or stay an arbitration, obtain an
order requiring arbitration, or to vacate or enforce an arbitrator’s
award shall be decided by the Court of Chancery in conformity
with the Federal Arbitration Act” unless the parties’ arbitration
agreement specifically refers to, and expresses their intention to
apply, the Delaware Uniform Arbitration Act. 10 Del. C. § 5702(c).
The arbitration provision in the TUA contains no such reference and
reflects no such intention. See TUA Art. 20.
48. Pls.’ Mot. ¶ 34 (Dkt. 14).

54a
Appendix B
judgment as a matter of law.”49 To obtain a permanent
injunction, the Gulf entities must (i) “succeed on the merits
of their case,” (ii) “demonstrate that irreparable harm will
result in the absence of an injunction,” and (iii) “prove
that, on balance, the equities weigh in favor of issuing
the injunction.”50
The parties’ positions on the merits of Gulf’s request
for a permanent injunction have shifted since Gulf filed this
case. Ultimately, the parties each came to rely primarily
on one of two different lines of authority concerning the
arbitration of disputes under the FAA: (i) cases enforcing
the policy against collateral attacks on arbitration awards
and (ii) cases interpreting broad arbitration clauses
as written on the question of “arbitrability,” i.e., “who
decides” whether a particular issue is arbitrable. The court
begins by reviewing the parties’ contentions concerning
these lines of authority.
A. 	The Collateral Attack Doctrine
Gulf argues that the court should enjoin the Second
Arbitration because it is an impermissible collateral
attack on the Judgment this court entered confirming
the Final Award in the First Arbitration. In support of
this argument, Gulf relies on a series of decisions where

49. Desert Equities, Inc. v. Morgan Stanley Leveraged Equity
Fund, II, L.P., 624 A.2d 1199, 1205 (Del. 1993).
50. Harden v. Christina Sch. Dist., 924 A.2d 247, 269 (Del.
Ch. 2007).

55a
Appendix B
courts have (i) dismissed litigation claims51 or (ii) entered
injunctions against the procession of a second arbitration,52
which amounted to a collateral attack on an award entered
in a prior arbitration. The rationale of these decisions is
that the FAA affords limited review of and a tight deadline
to challenge an arbitration award to ensure that finality
is achieved promptly and efficiently.
Under Section 10 of the FAA, a party may petition to
vacate an arbitration award only in limited circumstances,
i.e., where (i) “the award was procured by corruption,
fraud, or undue means,” (ii) “there was evident partiality
or corruption in the arbitrators,” (iii) “the arbitrators were
guilty of . . . misbehavior by which the rights of any party
have been prejudiced,” or (iv) “the arbitrators exceeded
their powers, or so imperfectly executed them that a
mutual, final, and definite award upon the subject matter
51. See e.g., Phillips Petroleum Co. v. Arco Alaska, Inc., 1988
Del. Ch. LEXIS 77, 1988 WL 60380, at *6 (Del. Ch. June 14, 1988)
(damages claim that adversary “acted illegally in the arbitration,
thereby tainting the arbitration award” an impermissible collateral
attack); Pryor v. IAC/InterActive Corp., 2012 Del. Ch. LEXIS 132,
2012 WL 2046827, at *6 (Del. Ch. June 7, 2012) (breach of contract
claim premised on adversary providing disallowed evidence in a
prior arbitration an impermissible collateral attack); Gulf Petro
Trading Co., Inc. v. Nigerian Nat’l. Petroleum Corp., 512 F.3d 742,
749-50 (5th Cir. 2008) (common law and statutory claims premised
on an arbitration panel’s misconduct in a previous arbitration an
impermissible collateral attack).
52. Prudential Sec. Inc. v. Hornsby, 865 F.Supp. 447, 450-51
(N.D. Ill. 1994); Decker v. Merrill Lynch, Pierce, Fenner & Smith,
Inc., 205 F.3d 906, 910 (6th Cir. 2000); Arrowood Indem. Co. v.
Equitas Ins. Ltd., 2015 WL 4597543, at *4-5 (S.D.N.Y. July 30, 2015).

56a
Appendix B
submitted was not made.”53 Under Section 11, a party
similarly may petition to modify an arbitration award
only in limited circumstances, i.e., where (i) “there was
an evident material miscalculation of figures or an evident
material mistake,” (ii) “the arbitrators have awarded
upon a matter not submitted to them,” or (iii) “the award
is imperfect in matter of form not affecting the merits of
the controversy.”54 Section 12 of the FAA requires that
“a motion to vacate, modify, or correct an award must be
served . . . within three months after the award is filed
or delivered.”55
The court reviews next three decisions where courts
have granted the relief Gulf seeks here—entry of an
injunction against the procession of a second arbitration
under the collateral attack doctrine—in deference to the
policies underlying the foregoing provisions of the FAA.
In Prudential Securities Incorporated v. Hornsby,
the district court enjoined Arthur Hornsby from pursuing
a second arbitration against Prudential. 56 In the first
arbitration, the tribunal awarded Hornsby $290,000 in
resolving his claims that a Prudential employee (Storaska)
mismanaged his account and that Prudential failed to
supervise Storaska adequately and fraudulently concealed

53. 9 U.S.C. § 10(a).
54. 9 U.S.C. § 11(a)-(c).
55. 9 U.S.C. § 12.
56. 865 F.Supp. at 452-53.

57a
Appendix B
his wrongdoing.57 Ten months later, Hornsby filed a second
arbitration, alleging a conspiracy between Prudential and
Storaska to “feign[] compliance with [Hornsby’s] document
requests during the AAA arbitration while fraudulently
concealing internal memoranda that confirmed Storaska’s
improper sales practices and Prudential’s toleration
of those practices.” 58 Hornsby sought “compensatory
and punitive damages in excess of $1 million against
Prudential” in the second arbitration. 59
The district court found that the second arbitration
amounted to a collateral attack on the prior A A A
arbitration because the claim in the second arbitration “is
premised entirely on Prudential’s fraudulent concealment
of documents from the original arbitration panel,
misconduct in the proceeding itself.”60 The district court’s
reasoning drew on the policies underlying the provisions
of the FAA governing review of arbitration awards:
The strictures of section 10 and section 12 [of
the FAA] are designed to afford an arbitration
award finality in a timely fashion, promoting
arbitration as an expedient method of resolving
disputes without resort to the courts.
*****
57. Id. at 448.
58. Id. at 448-49.
59. Id. at 449.
60. Id. at 451, 453.

58a
Appendix B
Because the policies behind section 10 would
be eviscerated if it were only an optional way
to modify an arbitration award, an attempt
to modify an award by a route or mechanism
other than section 10 must be enjoined. Like
the collateral actions noted above, Hornsby’s
attempt to arbitrate an “independent” fraud
claim against Prudential is, in reality, an
attempt to augment and modify the first
arbitration award.61
In Decker v. Merrill Lynch, Pierce, Fenner & Smith,
Inc., the Sixth Circuit Court of Appeals affirmed a
district court’s entry of an injunction to enjoin a second
arbitration.62 In the first arbitration, an NASD arbitration
panel awarded Emily Decker $40,000 in damages in
resolving her claim that Merrill Lynch had mismanaged
Decker’s securities investment.63 A few months later,
Decker filed a complaint against Merrill Lynch in
Michigan state court, which it removed to federal court,
alleging that Merrill Lynch interfered with the arbitration
when one of its subsidiaries hired the chairperson of the
arbitration panel.64 Decker then filed a second arbitration
with the NASD, asserting the same claims.65
61. Id. at 450, 451.
62. 205 F.3d at 911-12.
63. Id. at 908.
64. Id.
65. Id.

59a
Appendix B
The Sixth Circuit agreed with the district court that
Decker’s complaint and second arbitration amounted to
a collateral attack, because Decker’s “ultimate objective
in this damages suit is to rectify the alleged harm she
suffered by receiving a smaller arbitration award than she
would have received in the absence of the chairperson’s
relationship with Merrill Lynch.”66 Invoking the policy
considerations underlying the FAA, the Sixth Circuit
affirmed the district court’s dismissal of the complaint
and enjoining of the second arbitration:
The FAA provides the exclusive remedy for
challenging acts that taint an arbitration
award whether a party attempts to attack
the award through judicial proceedings or
through a separate second arbitration. It would
be a violation of the FAA to allow Decker
to arbitrate the very same claims that we
have determined constitute an impermissible
collateral attack when previously presented for
adjudication by a court. Decker may not bypass
the exclusive and comprehensive nature of the
FAA by attempting to arbitrate her claims in a
separate second arbitration proceeding.67
In Arrowood Indemnity Company v. Equitas
Insurance Limited, the district court enjoined certain
“Underwriters” from pursuing a second arbitration
66. Id. at 910.
67. Id. at 911.

60a
Appendix B
against Arrowood.68 In the first arbitration, an arbitration
panel accepted Arrowood’s interpretation of certain
language in a contractual reinsurance program—i.e.,
a “Common Cause Coverage” provision that included a
“First Advised Clause”—and issued an award requiring
the Underwriters to pay Arrowood approximately $44.8
million.69 Over a year later, the Underwriters filed a
second arbitration demand (i) seeking access to certain
Arrowood records concerning the interpretation of the
Common Cause Coverage provision and (ii) asserting
that Arrowood “engaged in intentional misconduct in the
recent arbitration between the parties.” 70
The district court found that the second arbitration
was “in direct contravention of the FAA” and “must be
enjoined” because it sought “to recover all sums paid to
Arrowood” in the first arbitration.71 The district court
further explained that the Underwriters’ theory was that
the first arbitration panel “erred in its interpretation of the
Common Cause Provision due to Arrowood wrongfully,
and ‘improperly,’ withholding relevant documents” during
the first arbitration.72

68. 2015 U.S. Dist. LEXIS 99787, 2015 WL 4597543, at *8.
69. 2015 U.S. Dist. LEXIS 99787, [WL] at *1-2.
70. 2015 U.S. Dist. LEXIS 99787, [WL] at *3-4.
71. 2015 U.S. Dist. LEXIS 99787, [WL] at *6.
72. Id.

61a
Appendix B
B. 	Enforcement of Broad Arbitration Clauses
In response to Gulf’s reliance on the collateral attack
doctrine, Eni contends that the court “lacks jurisdiction to
entertain the matters set forth in the complaint because
the TUA delegates the threshold question of ‘arbitrability’
to the arbitration tribunal.” 73 In other words, the policy
underlying Eni’s opposition is that the court must enforce
a broad arbitration clause that delegates to an arbitrator
the authority to decide a disagreement about the scope of
an arbitration provision.74
The United States Supreme Court held long ago
that the “question whether the parties have submitted
a particular dispute to arbitration, i.e., the ‘question
of arbitrability,’ is ‘an issue for judicial determination
[u]nless the parties clearly and unmistakably provide
otherwise.’”75 The test under Delaware law for determining
when there is clear and unmistakable evidence that the
parties intended to have an arbitrator rather than the
court decide questions of substantive arbitrability turns
73. Def.’s Opp’n Br. 3 (Dkt. 17).
74. UPM-Kymmene Corp. v. Renmatix, Inc., 2017 Del. Ch.
LEXIS 766, 2017 WL 4461130, at *4 (Del. Ch. Oct. 6, 2017) (“A
disagreement about the scope of an arbitration provision—such as
whether an arbitration provision governs a particular dispute—is
known as an issue of ‘substantive arbitrability.’”) (citations omitted).
75. Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83, 123
S. Ct. 588, 154 L. Ed. 2d 491 (2002) (quoting AT&T Technologies,
Inc. v. Communications Workers of America, 475 U.S. 643, 649, 106
S. Ct. 1415, 89 L. Ed. 2d 648 (1986)).

62a
Appendix B
on whether the arbitration clause: (1) “generally provides
for arbitration of all disputes;” and (2) “incorporates a set
of arbitration rules that empower[s] arbitrators to decide
arbitrability.” 76 New York law, which governs the TUA,77
is to the same effect.78
In my opinion, the parties to the TUA evinced a “clear
and unmistakable” agreement to arbitrate the issue of
arbitrability. To start, the TUA expressly provides, with
a limited exception not relevant here, that “all possible
disputes” shall be resolved through arbitration:
Any Dispute . . . shall be exclusively and
definitively resolved through final and binding
arbitration, it being the intention of the Parties
that this is a broad form arbitration agreement
designed to encompass all possible disputes.79

76. James & Jackson, LLC v. Willie Gary, LLC, 906 A.2d 76,
80 (Del. 2006).
77. TUA Art. 19.
78. See Smith Barney Shearson Inc. v. Sacharow, 91 N.Y.2d
39, 689 N.E.2d 884, 885, 888, 666 N.Y.S.2d 990 (N.Y. 1997) (finding
“clear and unmistakable” evidence of an agreement to arbitrate
arbitrability where the arbitration clause provided that “[a]ny
controversy . . . shall be settled by arbitration in accordance with
the rules of the NASD Code” and the NASD Code provided that
“[t]he arbitrators shall be empowered to interpret and determine the
applicability of all provisions under this Code”) (internal quotations
omitted).
79. TUA Art. 20.1(a).

63a
Appendix B
The TUA goes on to define the term “Dispute” broadly to
include “any dispute, controversy or claim . . . arising out
of, relating to, or connected with this Agreement . . . as
well as any dispute over arbitrability or jurisdiction,”80 and
expressly provides that “arbitration shall be conducted in
accordance with the International Arbitration Rules of
the American Arbitration Association.”81
Focusing on the broad language in the TUA’s
arbitration clause, Eni argues that Gulf’s request for an
injunction must be denied because the arbitrators in the
Second Arbitration—and not this court—must decide the
whether the Final Award entered in the First Arbitration
has any preclusive effect on the claims asserted in the
Second Arbitration. In making this argument, Eni
emphasizes that the United States Supreme Court
unanimously held earlier this year in Henry Schein, Inc. v.
Archer and While Sales, Inc., that courts must respect the
parties’ decision to delegate the arbitrability question to
an arbitrator even if the argument for arbitration appears
to be frivolous:
We must interpret the [FAA] as written, and
the [FAA] in turn requires that we interpret
the contract as written. When the parties’
contract delegates the arbitrability question
to an arbitrator, a court may not override
the contract. In those circumstances, a court
possesses no power to decide the arbitrability
80. Id. Art. 1.57 (emphasis added).
81. Id. Art. 20.1(b).

64a
Appendix B
issue. That is true even if the court thinks that
the argument that the arbitration agreement
applies to a particular dispute is wholly
groundless. 82
Schein is a consequential decision that emphatically
reinforces that arbitration rights are a creature of
contract, and thus that courts must enforce such
contracts as written. 83 But Schein does not address the
collateral attack doctrine. Nor does Schein address the
scenario present here where a second, related arbitration
proceeding has been filed. The court discusses next two
circuit court decisions on which Eni relies where the courts
have enforced broad arbitration clauses and allowed an
arbitrator to determine the arbitrability of the claims
asserted in a second arbitration.
In John Hancock Mutual Life Insurance Company
v. Olick, the Third Circuit considered “the question
of whether, under the [FAA], a district court has the
authority, notwithstanding a valid arbitration clause, to
enjoin a party from pursuing arbitration on res judicata
grounds arising from both a prior arbitration and a prior
judgment.”84 The prior judgment arose from a district court
82. 139 S.Ct. 524, 529, 202 L. Ed. 2d 480 (2019).
83. One consequence of Schein is that it should end the additional
“no non-frivolous argument about substantive arbitrability” inquiry
this court has conducted under McLaughlin v. McCann, 942 A.2d 616,
626-27 (Del. Ch. 2008) “to guard against the frivolous invocation of an
arbitration clause even when the Willie Gary test has been satisfied.”
UPM-Kymmene, 2017 Del. Ch. LEXIS 766, 2017 WL 4461130, at *4.
84. 151 F.3d 132, 133 (3d Cir. 1998).

65a
Appendix B
action captioned Carroll v. Hancock that involved alleged
“violations of several federal and state statutes, along
with various common law fraud theories, in connection
with a series of limited partnership transactions.”85 The
prior arbitration related to the same limited partnership
transactions “that were the subject of the Carroll action.”86
Over one year after entry of the prior judgment
and of an award in the prior arbitration, Olick filed a
second arbitration asserting claims “sounding in fraud,
misrepresentation, tortious interference with business
relations, slander, libel, and RICO violations.”87 Hancock
argued that Olick’s second arbitration claim “arose from
the same factual circumstances as the previous arbitration
. . . as well as the prior federal judgment, and therefore
principles of res judicata barred Olick from raising a claim
that could have been raised at either the prior arbitration
proceeding or the Carroll litigation.”88
Recognizing that the case presented “somewhat of a
‘hybrid’ situation in that Hancock’s objection to arbitrating
Olick’s claims stems from both a prior arbitration and a
prior judgment,” the Third Circuit differentiated between
the two scenarios in its analysis.89 With respect to the prior
85. Id. at 134.
86. Id.
87. Id.
88. Id.
89. Id. at 137.

66a
Appendix B
federal judgment, the Third Circuit concluded, based on
its precedents, “that the district court . . . should have first
decided the preclusive effect of the prior federal judgment
as it relates to Olick’s [second] demand for arbitration.” 90
With respect to the prior arbitration, however, the Third
Circuit concluded that “Hancock’s res judicata objection
based on the prior arbitration is an issue to be arbitrated
and is not to be decided by the courts.”91 In reaching the
latter conclusion, Circuit Judge Seitz, writing for the
panel, explained the Court’s rationale as follows:
The reasoning underlying this approach is that
a provision regarding the finality of arbitration
awards is a creature of contract and, like any
other contractual provision that is the subject of
dispute, it is within the province of arbitration
unless it may be said “with positive assurance”
that the parties sought to have the matter
decided by a court.92
In Citigroup, Inc. v. Abu Dhabi Investment Authority,
the Second Circuit held that the arbitrators in a second
arbitration “should also decide the claim-preclusive effect
of a federal judgment confirming an arbitral award.” 93
In the first arbitration, the Abu Dhabi Investment
Authority (ADIA) asserted a variety of claims (fraud,
90. Id. at 138-39.
91. Id. at 140.
92. Id. at 139.
93. 776 F.3d 126, 131 (2d Cir. 2015).

67a
Appendix B
securities fraud, negligent misrepresentation, breach
of fiduciary duty, breach of contract, and breach of the
implied covenant of good faith and fair dealing) against
Citigroup, alleging that it “had diluted the value of
[ADIA’s] investment [in Citigroup] by issuing preferred
shares to other investors.” 94 The first arbitration panel
returned an award in favor of Citigroup, which the
United States District Court for the Southern District
of New York later confirmed. While that confirmation
proceeding was pending, ADIA filed a second arbitration
“again asserting claims of breach of contract and breach
of the implied covenant of good faith and fair dealing.”95
Citigroup sought to enjoin the second arbitration “on
the ground that ADIA’s new claims were barred by the
doctrine of claim preclusion, or res judicata, because they
were or could have been raised in the first arbitration.” 96
The Second Circuit’s explained that its conclusion that
the arbitrators should decide the claim-preclusive effect
of the judgment confirming the first arbitral award was
as a “simple intuitive step” that followed from two of the
Second Circuit’s prior precedents.97 In those prior cases,
the Second Circuit held “that arbitrators are to resolve the
claim-preclusive effect of an arbitration award confirmed
by a state court and the issue-preclusive effect of a federal

94. Id. at 127.
95. Id.
96. Id. at 128.
97. Id. at 131.

68a
Appendix B
judgment.” 98 Additionally, the Second Circuit expressed
the view that the arbitrators would be better positioned
than the confirming court to consider the preclusive effect
of an arbitration award based on their familiarity with the
underlying merits:
Indeed, in confirming the award, the district
court did not review the merits of any of ADIA’s
substantive claims or the context in which
those claims arose. Instead, it considered only
whether the arbitration panel’s evidentiary
rulings and application of New York choice-oflaw principles violated the FAA. Under these
circumstances, a district court unfamiliar with
the underlying circumstances, transactions,
and claims, is not the best interpreter of what
was decided in the arbitration proceedings, the
result of which it merely confirmed.99
*****
With the foregoing discussion of the legal principles
upon which the parties primarily rely in mind, the court
turns next to consider the elements of Gulf’s request
for entry of a permanent injunction to enjoin Eni from
98. Id. See also Nat’l Union Fire Ins. Co. of Pittsburgh, PA
v. Belco Petroleum Corp., 88 F.3d 129 (2d Cir. 1996) (addressing
preclusive effect of arbitration award confirmed by a state court);
United States Fire Ins. Co. v. Nat’l Gypsum, 101 F.3d 813 (2d Cir.
1996) (addressing preclusive effect of federal judgment).
99. 776 F.3d at 132-33 (citations omitted).

69a
Appendix B
pursuing the claims it has asserted in the Second
Arbitration.
C. 	The Merits of Gulf’s Request for a Permanent
Injunction
Gulf contends that the two substantive claims Eni
has asserted in the Second Arbitration—for negligent
misrepresentation and breach of contract—constitute
impermissible collateral attacks on the First Arbitration.100
Synthesizing the six cases applying the collateral attack
doctrine cited above, Gulf contends the relevant inquiry
for determining if the claims in the Second Arbitration
amount to an impermissible collateral attack is whether
“the nature of the claims and relief sought in the Second
Arbitration . . . (a) seek[] to rectify alleged harm suffered
in the earlier arbitration, or (b) challeng[e] alleged
misconduct occurring in that earlier proceeding which
purportedly tainted the prior Award.”101
In response, Eni advances essentially three lines
of argument. First, it contends that Schein overruled
all of the cases on which Gulf relies that have applied
the collateral attack doctrine, each of which pre-dates
Schein.102 Second, Eni discounts most of Gulf’s precedents
because, according to Eni, they “do not address the
100. Gulf also asserted a claim for declaratory relief in the
Second Arbitration, but that claim goes hand in hand with its contract
claim. See Second Arbitration Notice ¶¶ 66-67, 69-70.
101. Pls.’ Suppl. Br. 2.
102. Def.’s Suppl. Br. 4 (Dkt. 34).

70a
Appendix B
arbitrability question.”103 Third, Eni argues as a factual
matter that its claims in the Second Arbitration do not
constitute a collateral attack on the Final Award.104 The
court addresses these issues, in turn, below.
As to Eni’s first line of argument, Schein nowhere
mentions the collateral attack doctrine. Schein does not
even refer to any of the cases Gulf cites that have applied
that doctrine. In the absence of any actual discussion
or analysis of the collateral attack doctrine in Schein,
this court declines to assume that the Supreme Court’s
rejection of a “wholly groundless” exception to arbitrability
means that it intended to overrule this well-established
doctrine. Apart from the fact that Schein does not even
discuss the issue, the question of arbitrability that Schein
does address focuses on the need to honor contractual
intent whereas the collateral attack doctrine is premised
on different considerations, namely the policies of finality
and limited review underlying the provisions of the FAA
governing judicial review and confirmation of arbitration
awards.105
As to Eni’s second line of argument, it is not surprising
that a decision applying the collateral attack doctrine
would not separately consider the question of arbitrability.
The point of the doctrine is that a court may intervene
to dismiss litigation claims or to enjoin a second round
103. Id. 6.
104. Id. 14.
105. See Part II.A.

71a
Appendix B
of arbitration based on a prior arbitration in order to
vindicate the policies of finality and limited review of
arbitration awards embedded in the FAA notwithstanding
the existence of a broad arbitration clause. As the
Arrowood court put it:
Although parties are generally free to seek
arbitration under a broad arbitration clause,
courts may intervene if the “ultimate objective
. . . is to rectify the alleged harm” a party
suffered from an unfavorable arbitration award
“by attempting to arbitrate [its] claims in a
separate second arbitration proceeding.” Such
arbitral mulligans are forbidden by the FAA,
which is the “exclusive remedy for challenging
acts that taint an arbitration award[,] whether
a party attempts to attack the award through
judicial proceedings or through a second
arbitration.”106
This approach is consistent with then-Chancellor
Strine’s decision in Pryor v. IAC/InterActiveCorp.,107 a
case on which both parties rely. In that case, William
Pryor sued IAC in the Court of Chancery for alleged
misconduct in an arbitration that valued Pryor’s shares
in Shoebuy.com, Inc., a company that IAC acquired.108
The arbitrator selected Houlihan Lokey as the valuation
106. 2015 U.S. Dist. LEXIS 99787, 2015 WL 4597543, at *5
(quoting Decker, 205 F.3d at 910-11).
107. 2012 Del. Ch. LEXIS 132, 2012 WL 2046827.
108. 2012 Del. Ch. LEXIS 132, [WL] at *1.

72a
Appendix B
expert for the arbitration, and Houlihan Lokey issued
an award adopting IAC’s proposed appraisal value.109
After issuance of the arbitration award, Pryor filed suit
in the Court of Chancery seeking to vacate the award
and asserting claims for breach of contract and breach
of fiduciary duty against IAC for introducing in the
arbitration “certain market evidence in violation of the
terms of the Stockholder’s Agreement” that governed the
valuation of his shares.110
In adjudicating IAC’s motion to dismiss, the court
found (i) that “the substantive arbitrability of the fiduciary
duty and contract claims [must] be determined by the
arbitrator” and (ii) relying on Decker, that the “breach of
contract claim fails for a separate reason because . . . it
constitutes an impermissible collateral attack” on the
arbitration award.111 Significantly, the court dismissed
the fiduciary duty claim “without prejudice to allow Pryor
to re-file in the event that the arbitrator concludes that
the breach of fiduciary duty claim is not arbitrable,” but
dismissed the contract claim “with prejudice because the
109. Id.
110. Id.
111. 2012 Del. Ch. LEXIS 132, [WL] at *6. In finding that
the contract claim constituted an impermissible collateral attack,
the court reasoned as follows: “Pryor’s objective in this breach
of contact claim is to remedy ‘the alleged harm [he] suffered by
receiving a smaller arbitration award than [he] would have received
in the absence of the [submission of allegedly improper evidence].’
In order to obtain such relief, a plaintiff is limited to proceeding
under the FAA.” Id.

73a
Appendix B
flaw that this Count is an impermissible collateral attack
on the [arbitration award] is not curable by proceeding
before the arbitrator at this belated stage.”112 The court’s
“with prejudice” dismissal of the contract claim accords
with the ability of courts to intervene to dispose of
collateral attack claims definitively notwithstanding the
existence of a broad arbitration clause.
Eni’s third line of argument gets to the core
issue before the court, i.e., whether the negligent
misrepresentation and contract claims it has asserted in
the Second Arbitration amount to a collateral attack on
the Final Award. In my opinion, for the reasons discussed
next, the negligent misrepresentation claim does but the
contract claim does not.
1. 	Negligent Misrepresentation Claim
Eni’s claim for negligent misrepresentation, seeks
“declaratory and other relief, in the form of damages and/
or restitution . . . as a result of Gulf’s wrongful conduct”
before the First Tribunal.113 The gravamen of this claim is
that Gulf falsely represented to the First Tribunal “that
it would no longer be able to recover Reservation and
Operating fees from its other customer, ALSS or from
any other source, if Eni prevailed in the arbitration” in
order “[t]o secure the award of equitable compensation
for Decommissioning Costs of the Pascagoula Facility in
112. 2012 Del. Ch. LEXIS 132, [WL] at *7.
113. Second Arbitration Notice ¶ 76.

74a
Appendix B
the amount of approximately $418 million.”114 According
to Eni, had Gulf not made this misrepresentation, “the
compensation amount paid by Eni for decommissioning
costs would have been greatly reduced, or reduced to zero”
because the First Tribunal “excluded the amount of future
Reservation and Operating Fee payments that Gulf would
receive from ALSS in calculating the compensation for
Decommissioning Costs [it] awarded to Gulf.”115
The negligent misrepresentation claim is a collateral
attack on the Final Award for two reasons. First, Eni’s
ultimate objective in the Second Arbitration is to receive
payment for decommissioning costs it was required to
pay to satisfy the Final Award. In other words, Eni is
seeking to claw back some or all of the damages that
were awarded to Gulf in an arbitration proceeding that
is supposed to be concluded. If Eni had its way, for all
practical purposes, the finality of the Final Award would
be undone and the monetary recovery Gulf obtained in the
First Arbitration would be nullified. This is the epitome
of a collateral attack.116
114. Id. ¶ 72.
115. Id. ¶ 75.
116. See Arrowood, 2015 WL 4597543, at *6 (second arbitration
that sought “to recover all sums paid to Arrowood” in the first
arbitration was a collateral attack). See also Prudential, 865 F.Supp.
at 451 (second arbitration that attempted “to augment and modify
the first arbitration award” was a collateral attack); Decker, 205
F.3d at 910 (second arbitration brought to “rectify . . . receiving a
smaller arbitration award” than desired in first arbitration was a
collateral attack).

75a
Appendix B
Second, and related to the first point, the essence
of Eni’s negligent misrepresentation claim is that Gulf
procured damages in the First Arbitration by engaging in
misconduct that tainted the Final Award. Yet Eni made no
effort to seek to vacate the Final Award on this ground and
has no right to bring a collateral attack now to “challenge
the very wrongs affecting the award for which review is
provided under section 10 of the Arbitration Act.”117
Eni devotes substantial attention in its opposition
papers explaining why its contract claim does not
constitute a collateral attack, a conclusion with which the
court agrees, but it makes virtually no effort to do so with
respect to its negligent misrepresentation claim.118 Indeed,
Eni’s defense on this point boils down to the conclusory
assertion that “Eni does not assert [the negligent
misrepresentation] claim in order to undo or alter the prior
Award.”119 This contention exalts form over substance. Eni
did pay Gulf the sum it was ordered to pay in the Judgment
and, as technical matter, it does not seek to alter the words
of the Judgment. As a substantive matter, however, Eni’s
misrepresentation claim is a transparent tactic to claw
117. Corey v. New York Stock Exch., 691 F.2d 1205, 1213 (6th
Cir. 1982) (“Very simply, Corey did not avail himself of the review
provisions of section 10 of the Arbitration Act and may not transform
what would ordinarily constitute an impermissible collateral attack
into a proper independent direct action by changing defendants and
altering the relief sought.”); see also Phillips Petroleum, 1988 Del.
Ch. LEXIS 77, 1988 WL 60380, at *6 (damages claim premised upon
one party “act[ing] illegally in the arbitration, thereby tainting the
arbitration award” an impermissible collateral attack).
118. See Def.’s Suppl. Br. 14-22.
119. Id. 20.

76a
Appendix B
back the damages it paid Gulf under the Judgment for
the purpose of reducing and potentially nullifying the
substance of the damages award that Gulf obtained as a
result of the First Arbitration.
2. 	Contract Claim
In the Second Arbitration, Eni seeks declaratory
relief and damages and/or restitution on the theory that
“Gulf breached the TUA by engaging in liquefaction-and
export-related activities in direct contravention of the
express terms of at least Articles 22.4(a) and 22.4(e) of the
TUA.”120 In the First Arbitration, Eni sought a declaration
that Gulf “breached the warranties and covenants set
forth in at least Articles 22.4(a) and 22.4(e) and that Eni
[] thereby may properly terminate the TUA pursuant to
Article 18.1.”121 Importantly, the First Tribunal never
ruled on these issues, which it found to be academic in
view of its ruling that the TUA had been terminated for
frustration of purpose:
Considering the Tribunal’s finding on the
frustration of TUA’s purpose, the question as
to whether [the Gulf entities] have breached the
warranties and covenants, including those set
forth at Articles 22.4(a) and 22(e) of the TUA,
has become academic and deserves no further
consideration.122
120. Second Arbitration Notice ¶ 66-67, 69-70.
121. Dkt. 38 ¶ 64.
122. Final Award ¶ 347.

77a
Appendix B
The contract claim in the Second Arbitration does not
constitute a collateral attack on the Final Award under
Gulf’s own formulation of the operative test. Specifically,
given that the First Tribunal never reached the merits
of the claim for breaches of Articles 22.4(a) and 22.4(e)
of the TUA and never granted any relief based on that
claim, it cannot be said that Eni’s contract claim in the
Second Arbitration seeks to rectify “harm” allegedly
suffered in the First Arbitration. Nor can it be said—and
Gulf does not contend otherwise—that Eni is challenging
alleged misconduct in the First Arbitration relating to
the contract claim as having somehow tainted the Final
Award.
Given the court’s conclusion that the contract claim
in the Second Arbitration is not a collateral attack, and
the broad language of the arbitration provision in the
TUA that evinces the parties’ agreement to arbitrate
the issue of arbitrability, it is up to the tribunal in the
Second Arbitration to determine whether the contract
claim is arbitrable and, if so, whether that claim would be
precluded based on the First Arbitration. This conclusion
accords with the decisions in Schein, Olick, and Citigroup
discussed above.123
****
For the reasons explained above, the court concludes
that Gulf has established that Eni’s misrepresentation claim
in the Second Arbitration constitutes an impermissible
123. See Part. II.B.

78a
Appendix B
collateral attack on the Final Award but that Gulf has
failed to make this showing with respect to its contract
claim in the Second Arbitration.
D. 	The Remaining Elements for a Permanent
Injunction
It is well-established under Delaware law that
requiring a party to “devote unnecessary time and
resources to contest” an issue that the court has
determined to be “not arbitrable” amounts to irreparable
harm.124 Accordingly, absent an injunction, Gulf would
suffer irreparable harm if it were required to arbitrate
the misrepresentation claim in the Second Arbitration.
Finally, the balance of the equities weighs in Gulf’s
favor to obtain a permanent injunction with respect to the
negligent misrepresentation claim. Without an injunction,
Gulf will be deprived of the finality to which it is entitled
concerning the damages award it obtained as a result of
the First Arbitration. On the other side of the ledger, Eni
has made no argument that the equities weigh in its favor,
and the court is hard-pressed to conceive of a basis for such
an argument insofar as the negligent misrepresentation
claim is concerned.

124. Bd. of Educ. of Sussex Cty. Vocational-Tech. Sch. Dist. v.
Sussex Tech. Educ. Ass’n, 1998 Del. Ch. LEXIS 47, 1998 WL 157373,
at *5 (Del. Ch. Mar. 18, 1998); see also Delaware Pub. Emps. v. New
Castle Cty., 1994 Del. Ch. LEXIS 168, 1994 WL 515291, at *4 (Del.
Ch. Aug. 25, 1994).

79a
Appendix B
III.	CONCLUSION
For the foregoing reasons, Gulf’s motion for judgment
on the pleadings is granted with respect to the negligent
misrepresentation claim that Eni has asserted in the
Second Arbitration but otherwise is denied. The parties
are directed to confer and to submit an implementing
order consistent with this decision within five business
days.

